 Department of Veterans Affairs

       Office of Inspector General




Semiannual Report to Congress
Issue 64 | April 1, 2010—September 30, 2010
Online Availability
This report is provided with our compliments. It is also available on our web site:
http://www.va.gov/oig/publications/semiann/reports.asp


To access other OIG reports, visit: http://www.va.gov/oig/publications/reports-list.asp

OIG Highlights are a monthly summary of significant activity within OIG. The last 12 months’
collection is available at: http://www.va.gov/oig/publications/news-list.asp




Additional Copies
Copies of this report are available to the public. Written requests should be sent to:


                                 Office of Inspector General (53B)
                                  Department of Veterans Affairs
                                    810 Vermont Avenue, NW
                                      Washington, DC 20420




Automatic Notifications
OIG offers a free e-mail subscription service that provides automatic notifications by e-mail when
new reports or other information is posted to the OIG web site. You may specify that you would
like to receive notification of all OIG reports or only certain types of OIG reports. In addition,
you may change your preferences or unsubscribe at any time. To receive e-mail notifications of
additions to the OIG web site, go to: http://www.va.gov/oig/publications/reports-list.asp and click
on “Sign up to receive e-mail updates.”

In addition, you can also sign up to receive OIG’s RSS feeds by visiting:
http://www.va.gov/oig/rss/reports-rss.asp and clicking on “Subscribe to this feed.”
   Message from the
                                                       Inspector General
                                                     I am pleased to submit this issue of the Semiannual
                                                     Report to the Congress of the United States.
                                                     Pursuant to the Inspector General Act of 1978, as
                                                     amended, this report presents the results of our most
                                                     signiﬁcant accomplishments during the reporting
                                                     period April 1 – September 30, 2010.

                                                     During this reporting period, the Ofﬁce of Inspector
                                                     General (OIG) issued 143 reports on VA programs
                                                     and operations. OIG inspections, audits, evaluations,
                                                     investigations, and other reviews identiﬁed over
                                                     $1.2 billion in monetary beneﬁts, for a return of
                                                     $26 for every dollar expended on OIG oversight.

                                                 Our criminal investigators closed 418 investigations
and made 257 arrests for a variety of crimes including fraud, bribery, embezzlement, identity theft,
drug diversion and illegal distribution, computer crimes, and personal and property crimes. OIG
investigative work also resulted in 301 administrative sanctions. Fourteen defendants previously
indicted on charges relating to conspiracy, bribery, theft, and money laundering were sentenced,
with most receiving between 12 to 30 months’ incarceration. The defendants included a former
VA Regional Ofﬁce employee, a former Veterans Service Ofﬁcer, and family members and other
acquaintances of these individuals. The defendants had been indicted in November 2008 for ﬁling
fraudulent claims with VA in order to receive large, retroactive disability compensation payments,
which resulted in a loss to VA of approximately $2 million.

Additionally, an OIG administrative investigation substantiated that a senior ofﬁcial within the Ofﬁce
of Human Resources and Administration (OHRA) engaged in prohibited personnel practices, abused
his authority, misused his position to appoint two subordinates, and made false statements. The
investigation also substantiated allegations of misconduct against ﬁve other OHRA employees.

Oversight work performed by OIG’s Ofﬁce of Audits and Evaluations determined that Veterans Health
Administration (VHA) made net overpayments of $120 million on non-VA inpatient care for Veterans
in ﬁscal year (FY) 2009. Without improvements in payment processes, overpayments of $600 million
could be made over the next 5 years. In addition, by consolidating the Non-VA Inpatient Care Fee
Program’s claim processing system and achieving economies of scale, OIG auditors conservatively
estimate that VHA would achieve a cost savings of $26.8 million in FY 2009, or $134 million over the
next 5 years.

Our Ofﬁce of Healthcare Inspections staff published Combined Assessment Program reviews of
33 VHA medical centers, focusing on a variety of actions critical to ensuring that Veterans receive
high quality medical care. In reviews of 42 community based outpatient clinics, inspectors made
recommendations to ensure that Veterans receive the same high quality of care whether they are
treated at medical centers or freestanding clinics.

We appreciate the ongoing support we receive from the Secretary, Deputy Secretary, and senior
management. We look forward to continuing our partnership with VA and Congress to ensure the


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         |1
Issue 64 | April 1, 2010 — September 30, 2010
                  Message from the Inspector General, continued

Department is transformed into a 21st Century organization that honors America’s Veterans by
providing them the proper care, support, and recognition they have earned in service to our country.




GEORGE J. OPFER
Inspector General




                                                                           VA O f f i c e o f I n s p e c t o r G e n e r a l
|2
                                                                      Issue 64 | April 1, 2010 — September 30, 2010
Table of Contents

Message from the Inspector General | 1

Statistical Highlights | 4

VA and OIG Mission, Organization, and Resources | 5

Ofﬁce of Healthcare Inspections | 8

         Combined Assessment Program Reviews | 8

         Community Based Outpatient Clinic Reviews | 8

         National Reports | 9

         Hotline Reports | 11

Ofﬁce of Audits and Evaluations | 16

         Veterans Health Administration Reports | 16

         Veterans Beneﬁts Administration Audits and Evaluations | 17

         Veterans Beneﬁts Administration Beneﬁts Inspections | 18

         American Recovery and Reinvestment Act of 2009 Reports | 19

         Other Reviews | 20

Ofﬁce of Investigations | 22

         Veterans Health Administration Investigations | 22

         Veterans Beneﬁts Administration Investigations | 25

         Other Investigations | 32

         Administrative Investigations | 35

         Employee-Related Investigations | 36

         Threats Made Against VARO Employees | 38

         Fugitive Felons Arrested with OIG Assistance | 38

Ofﬁce of Management and Administration | 39

         Hotline Division | 39

Ofﬁce of Contract Review | 41

         Preaward Reviews | 41

         Postaward Reviews | 41

         Counselor to the Inspector General Special Report | 42

         Qui Tam Cases | 42

Other Signiﬁcant OIG Activities | 44

         Congressional Testimony | 44

         Special Recognition | 45

Appendix A: List of OIG Reports Issued | 46

Appendix B: Status of OIG Reports Unimplemented for Over 1 Year | 60

Appendix C: Inspector General Act Reporting Requirements | 70

Appendix D: Government Contractor Audit Findings | 72

Appendix E: American Recovery and Reinvestment Act Oversight Activities | 73

Appendix F: Restoring American Financial Stability Act Reporting Requirements | 74

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                 |3
Issue 64 | April 1, 2010 — September 30, 2010
                                                                                     Statistical Highlights
                                                                                                          Reporting
                                                                                                                                        FY
                                                                                                           Period
                        Better Use of Funds                                                                           $226                   $502
  DOLLAR IMPACT



                        Fines, Penalties, Restitutions, and Civil Judgments                                          $37.5                  $83.4
    (in Millions)



                        Fugitive Felon Program                                                                     $107.5                 $171.1
                        Savings and Cost Avoidance                                                                 $121.4                 $403.7
                        Questioned Costs                                                                           $725.5                 $725.6
                        Dollar Recoveries                                                                            $23.1                  $28.1
                        Total Dollar Impact                                                                        $1,241               $1,913.7
                                                   1                                                                    $47                    $94
                        Cost of OIG Operations
                        Return on Investment (Total Dollar Impact/Cost of OIG Operations)                              26:1                   20:1
                    Reports Issued
                        Administrative Investigations                                                                       3                      5
                        American Recovery and Reinvestment Act                                                              4                      7
                        Audits and Reviews                                                                                13                     22
                        Beneﬁts Inspections                                                                                 8                    14
                        Combined Assessment Program Reviews                                                               33                     55
                        Community Based Outpatient Clinic Reviews (encompassing 42 facilities)                              6                      8
                        Healthcare Inspections                                                                            27                     53
                        Preaward Contract Reviews                                                                         35                     70
                        Postaward Contract Reviews                                                                        13                     28
                        Counselor to the Inspector General Special Reports                                                  1                      1
                        Total Reports Issued                                                                            143                    263
                    Investigative Activities
     OTHER IMPACT




                        Arrests (Non-Fugitive Felon)                                                                    230                    465
                        Fugitive Felon Arrests                                                                            27                     61
                        Fugitive Felon Apprehensions by Other Agencies with OIG Assistance                                17                     25
                        Indictments                                                                                     148                    298
                        Criminal Complaints                                                                               90                   170
                        Convictions                                                                                     175                    344
                        Pretrial Diversions                                                                               19                     39
                        Administrative Sanctions                                                                        301                    533
                        Cases Opened                                                                                    560                    988
                        Cases Closed                                                                                    418                    842
                    Healthcare Inspections Activities
                        Clinical Consultations                                                                              4                      5
                        Administrative Case Closures                                                                        9                    19
                    Hotline Activities
                        Contacts                                                                                   14,737                 29,337
                        Cases Opened                                                                                    460                    885
                        Cases Closed                                                                                    394                    908
                        Administrative Sanctions                                                                          19                     41
                        Substantiation Rate                                                                            44%                    45%
1. This ﬁgure does not include the $9.4 million operating cost for the Ofﬁce of Healthcare Inspections. We do not include this ﬁgure 

because oversight work performed by OHI results in saving lives and not dollars.


                                                                                                     VA O f f i c e o f I n s p e c t o r G e n e r a l
4|
                                                                                               Issue 64 | April 1, 2010 — September 30, 2010
VA and OIG Mission, Organization, and Resources


Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity and
compassion and to be their principal advocate in ensuring that they receive the care, support, and
recognition earned in service to the Nation. The VA motto comes from Abraham Lincoln’s second
inaugural address, given March 4, 1865, “to care for him who shall have borne the battle and for his
widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the second largest
Federal employer. For ﬁscal year (FY) 2010, VA operated under a $127.1 billion budget, with nearly
300,000 employees serving an estimated 23.1 million living Veterans. To serve the Nation’s Veterans,
VA maintains facilities in every state, the District of Columbia, the Commonwealth of Puerto Rico,
Guam, and the Republic of the Philippines.

VA has three administrations that serve Veterans: the Veterans Health Administration (VHA) provides
health care, the Veterans Beneﬁts Administration (VBA) provides monetary and readjustment beneﬁts,
and the National Cemetery Administration (NCA) provides interment and memorial beneﬁts. For more
information, please visit the VA Internet home page at www.va.gov.

VA Office of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1, 1978, to
consolidate audits and investigations into a cohesive, independent organization. In October 1978,
the Inspector General Act, Public Law (P.L.) 95-452, was enacted, establishing a statutory Inspector
General (IG) in VA. It states that the IG is responsible for: (1) conducting and supervising audits
and investigations; (2) recommending policies designed to promote economy and efﬁciency in the
administration of, and to prevent and detect criminal activity, waste, abuse, and mismanagement in VA
programs and operations; and (3) keeping the Secretary and Congress fully informed about problems
and deﬁciencies in VA programs and operations and the need for corrective action. The IG has
authority to inquire into all VA programs and activities as well as the related activities of persons or
parties performing under grants, contracts, or other agreements. Inherent in every OIG effort are the
principles of quality management and a desire to improve the way VA operates by helping it become
more customer-driven and results-oriented.

OIG, with about 600 employees from appropriations, is organized into three line elements: the Ofﬁces
of Investigations, Audits and Evaluations, and Healthcare Inspections, plus a contract review ofﬁce
and a support element. FY 2010 funding for OIG operations provided $109 million from ongoing
appropriations. The Ofﬁce of Contract Review, with 25 employees, received $3.9 million through
a reimbursable agreement with VA for contract review services, including preaward and postaward
contract reviews and other pricing reviews of Federal Supply Schedule (FSS) contracts. In addition to
the Washington, DC, headquarters, OIG has ﬁeld ofﬁces located throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting VA
programs and the opportunities for improvement. In doing so, OIG staff strives to be leaders and
innovators, and to perform their duties fairly, honestly, and with the highest professional integrity. For
more information, please visit the OIG Internet home page at www.va.gov/oig.



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                             |5
Issue 64 | April 1, 2010 — September 30, 2010
OIG Field Offices Map   VA and OIG Mission, Organization, and Resources





                                                            VA O f f i c e o f I n s p e c t o r G e n e r a l
               6|
                                                       Issue 64 | April 1, 2010 — September 30, 2010
                                                                                                                                                                                  OIG Organizational Chart
                                                                                                                                                                                                                                                                                                      Office of Contract
                                                                                                                                                                                                         Inspector General                                                                                 Review
                                                                                                                  Congressional                        Special Assistant to the                          ______________                                      Counselor to the
                                                                                                                    Relations                            Inspector General                                                                                  Inspector General
                                                                                                                                                                                                      Deputy Inspector General                                                                       Information Release
                                                                                                                                                                                                                                                                                                            Office




                                                                                                                      Assistant Inspector General                                  Assistant Inspector General
                                                                                                                                                                                     Audits and Evaluations                          Assistant Inspector General                       Assistant Inspector General
                                                                                                                             Investigations
                                                                                                                                                                                                                                   Management and Administration                         Healthcare Inspections
                                                                                                                                                                                                                                  ____________________________                    ________________________________
                                                                                                             Deputy Assistant            Deputy Assistant                    Deputy Assistant       Deputy Assistant
                                                                                                            Inspector General           Inspector General                   Inspector General      Inspector General




                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                                                                                                                                  Deputy Assistant Inspector General                Deputy Assistant Inspector General
                                                                                                              Investigations              Investigations                  Audits and Evaluations Audits and Evaluations
                                                                                                             (HQ Operations)            (Field Operations)                (HQ/Field Operations)    (Field Operations)




Issue 64 | April 1, 2010 — September 30, 2010
                                                                                                                                                 Northeast Field Office
                                                                                                                             Criminal
                                                                                                     Analysis and                                     Newark, NJ                                                                               Operations                                                        Program
                                                                                                                          Investigations                                                                                                                                        Consultation and
                                                                                                      Oversight                                (Buffalo, NY; Manchester,                                                                                                                                     Administration and
                                                                                                                                                                                                                                                                                Medical Review
                                                                                                                                                NH; New York City, NY)                                                                                                                                        Special Projects
                                                                                                                                                                                                            Management
                                                                                                                             Benefits                                                                        Operations
                                                                                                                                                Mid-Atlantic Field Office                                                                      Information
                                                                                                                              Fraud                Washington, DC                                                                            Technology and
                                                                                                                                                                                                                                                                                   Healthcare
                                                                                                                                                    (Columbia, SC;                                                                            Data Analysis                                                     Biostatistics
                                                                                                                                                                                                                   Audit                                                        Financial Analysis
                                                                                                                                                   Fayetteville, NC;
                                                                                                                           Computer                                                                              Planning
                                                                                                     Administrative                                 Pittsburgh, PA)
                                                                                                     Investigations          Crimes                                                 Operations
                                                                                                                          and Forensics                                                                                                     Administrative and
                                                                                                                                                 Southeast Field Office              Divisions
                                                                                                                                                                                                                                                Financial                          Combined                  Community Based
                                                                                                                                                     Bay Pines, FL                   Dallas, TX               Quality
                                                                                                                                                                                                                                               Operations                         Assessment                 Outpatient Clinics/
                                                                                                                                                (Atlanta, GA; Nashville,           Washington, DC            Assurance
                                                                                                                           Health Care                                                                                                                                             Program                     Vet Centers
                                                                                                                                                 TN; Tallahassee, FL;
                                                                                                                             Fraud               West Palm Beach, FL)

                                                                                                                                                  Central Field Office                Financial              Statistical
                                                                                                     Investigative                                                                                                                               Hotline
                                                                                                                                                      Chicago, IL                      Audits                Operations                                                                       Regional Offices
                                                                                                     Data Systems
                                                                                                                          Fugitive Felon                                                                                                                                                        Atlanta, GA
                                                                                                     and Analysis                               (Cleveland, OH; Denver,
                                                                                                                            Program                                                                                                                                                            Baltimore, MD
                                                                                                                                                 CO; Kansas City, MO)
                                                                                                                                                                                      Benefits                                                                                                 Bay Pines, FL
                                                                                                                                               South Central Field Office            Inspection                                                                                                 Bedford, MA
                                                                                                                             Forensic                                                                                                            Budget                                         Chicago, IL
                                                                                                                                                      Dallas, TX                   (Bay Pines, FL;
                                                                                                                            Document                                                                                                                                                             Dallas, TX
                                                                                                                            Laboratory          (Houston, TX; Jackson,             San Diego, CA)
                                                                                                                                                 MS; Little Rock, AR)                                                                                                                           Denver, CO
                                                                                                         Legal                                                                                                                                                                                Kansas City, MO
                                                                                                        Counsel                                                                                                                                                                               Los Angeles, CA
                                                                                                                                                 Northwest Field Office                                              Operations Divisions
                                                                                                                                                                                     Information                        Atlanta, GA                                                            San Diego, CA
                                                                                                                                                  San Francisco, CA
                                                                                                                                                                                   Technology and                                                                                               Seattle, WA
                                                                                                                                                     (Seattle, WA;                                                     Bay Pines, FL
                                                                                                                                                                                    Security Audits                     Bedford, MA                                                           Washington, DC
                                                                                                                                                    Spokane, WA)
                                                                                                                                                                                     (Austin, TX;                        Chicago, IL
                                                                                                                                                                                   Washington, DC)                    Kansas City, MO
                                                                                                                                                  Western Field Office
                                                                                                                                                                                                                      Los Angeles, CA
                                                                                                                                                                                                                                                                                                                                   VA and OIG Mission, Organization, and Resources





                                                                                                                                                   Los Angeles, CA
                                                                                                                                                                                                                        Seattle, WA
                                                                                                                                                   (Las Vegas, NV;
                                                                                                                                                     Phoenix, AZ;
                                                                                                                                                    San Diego, CA)
                                                                                                     10/20/2010                                                                                                                                                                          INSPECTOR GENERAL
                                                                                                                                                                                                                                                                                       Department of Veterans Affairs




                      |7
                                              Office of Healthcare Inspections


The health care that VHA provides Veterans is consistently ranked among the best in the Nation,
whether those Veterans are recently returned from Operation Enduring Freedom/Operation Iraqi
Freedom (OEF/OIF) or are Veterans of other periods of service with different patterns of health care
needs. OIG oversight helps VHA maintain a fully functional program that ensures high-quality patient
care and safety, and safeguards against the occurrence of adverse events. The OIG Ofﬁce of
Healthcare Inspections focuses on quality of care issues in VHA and assesses medical outcomes.
During this reporting period, OIG published 11 national healthcare inspections; 16 Hotline healthcare
inspections; 33 Combined Assessment Program (CAP) reviews; and 6 Community Based Outpatient
Clinic (CBOC) reports, covering 42 facilities, to evaluate the quality of care.

Combined Assessment Program Reviews
CAP reviews are part of OIG’s efforts to ensure that quality health care services are provided to
Veterans. CAP reviews provide cyclical oversight of VHA health care facilities; their purpose is to
review selected clinical and administrative operations and to conduct fraud and integrity awareness
brieﬁngs. During this reporting period, OIG issued 33 CAP reports, which are listed in Appendix A.
Topics reviewed in a facility CAP may vary based on the facility’s mission. Topics generally run for
6–12 months; the CAP topics in current use since January 2010 are:

       • Coordination of care.                            • Physician credentialing and privileging.
       • Environment of care.                             • Quality management (QM).
       • Magnetic resonance imaging safety.               • Reusable medical equipment.
       • Medication management.                           • Suicide prevention safety plans.

When ﬁndings warrant more global attention, summary or “roll up” reports are prepared at the
conclusion of a topic’s use.

Community Based Outpatient Clinic Reviews
As requested in House Report 110-775, to accompany H.R. 6599, Military Construction, Veterans
Affairs, and Related Agencies Appropriation Bill, FY 2009, OIG initiated a systematic review of VHA
CBOCs. The purpose of the cyclical reviews is to assess whether CBOCs are operated in a manner
that provides Veterans with consistent, safe, high-quality health care in accordance with VA policies
and procedures. The CBOC inspection process consists of four components: CBOC site-speciﬁc
information gathering and review, medical record reviews for determining compliance with VHA
performance measures, onsite inspections, and CBOC contract review. The objectives of the reviews
are to determine: (1) whether CBOC quality of care measures are comparable to the parent facility
clinics, (2) whether CBOC providers are appropriately credentialed and privileged in accordance
with VHA policy, (3) whether CBOCs maintain the same standard of care as their parent facility to
address the Mental Health needs of OEF/OIF era Veterans, (4) whether CBOCs are in compliance with
standards of operations according to VHA policy in the areas of environmental safety and emergency
management planning, (5) the effect of CBOCs on Veterans’ perception of care, and (6) whether
CBOC contracts were administered in accordance with contract terms and conditions.

During this reporting period, OIG performed 42 CBOC reviews throughout 13 Veterans Integrated
Service Networks (VISNs). These reviews were captured in 6 reports. We made recommendations
for improvements at the following facilities:

                                                                            VA O f f i c e o f I n s p e c t o r G e n e r a l
8|
                                                                       Issue 64 | April 1, 2010 — September 30, 2010
Office of Healthcare Inspections


•	    VISN 1: Greenﬁeld and Pittsﬁeld, MA
•	    VISN 2: Dunkirk and Niagara Falls, NY
•	    VISN 4: Foxburg (Clarion County) and Hermitage (Marzano), PA
•	    VISN 5: Cumberland, MD, and Harrisonburg, VA
•	    VISN 8: Boca Raton, Coral Springs, Delray Beach, Key West, Stuart, and Vero Beach, FL
•	    VISN 9: Smithville, MS; Chattanooga, Knoxville, Memphis (Memphis-South), and Nashville (Vine
      Hill), TN; and Norton, VA
•	    VISN 10: Cambridge, Canton, Painesville, and Portsmouth, OH
•	    VISN 11: Muncie and South Bend, IN
•	    VISN 17: Corpus Christi, Denton, Fort Worth, and New Braunfels, TX
•	    VISN 18: Payson and Sun City, AZ
•	    VISN 19: Fort Collins, CO, and Sidney, NE
•	    VISN 21: Eureka and Ukiah, CA
•	    VISN 22: Commerce (East Los Angeles), El Centro (Imperial Valley), Long Beach (Cabrillo),
      Oxnard, San Diego (Mission Valley), and Santa Fe Springs (Whittier), CA

National Reports
Quality Management Lapses Cited in Review of Brachytherapy Treatment
At the request of the VA Secretary and Members of Congress, OIG performed a comprehensive
review of prostate brachytherapy performed at the Philadelphia, PA, VA Medical Center (VAMC) and
elsewhere in VHA. OIG found that an incident at the Philadelphia VAMC involving a prostate cancer
patient being inadvertently implanted with radioactive seeds of the wrong strength was an isolated
occurrence; however, there were numerous process deﬁciencies at the VAMC in quality management,
information technology, and contracting with the University of Pennsylvania. The VAMC also had
numerous Nuclear Regulatory Commission compliance issues. Despite these issues, recurrence
and disease-relapse rates of VAMC prostate brachytherapy patients appear within the norm and
complication and adverse event rates were not excessive. OIG made ﬁve recommendations to correct
these deﬁciencies.

VHA Quality Assurance Programs and Contract Services Reviewed
As requested by the Senate Appropriations Committee, OIG completed a review of VHA quality
assurance and oversight programs, including peer review activities at VAMCs and guidance in place
to ensure proper oversight of contract services. OIG examined pertinent VHA directives, handbooks,
and memoranda, meeting minutes, and other publications, and interviewed VHA executives. VHA has
extensive programs in place for the oversight of medical delivery at its facilities and collaborates with
numerous external agencies and with the OIG. Substantial organizational innovations are currently
being initiated to improve the effectiveness of professional peer review and contracting. OIG made no
recommendations and will continue to monitor VHA’s progress in these areas.

OIG Review Found Progress, Barriers in Implementation of VHA Mental Health Handbook
OIG conducted a review of VA’s progress in implementing VHA Handbook 1160.01, Uniform
Mental Health Services in VA Medical Centers and Clinics (the Handbook), as directed in House
of Representatives Report 111-188 to accompany H.R. 3082, the Military Construction, Veterans
Affairs, and Related Agencies Appropriations Bill, 2010. The review also assessed the metrics


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       |9
Issue 64 | April 1, 2010 — September 30, 2010
                                                 Office of Healthcare Inspections


  developed by VA to ensure implementation of Handbook requirements, the system developed to track
  use of evidence-based post-traumatic stress disorder (PTSD) therapies, whether VA has sufﬁcient
  inpatient capability available for substance use treatment, and the identiﬁcation of any barriers to full
  implementation. OIG made ﬁve recommendations to the Under Secretary for Health to achieve full
  implementation of the Handbook.

  Fee Care Providers Not Consistently Providing VA with Mammogram Results
  OIG evaluated VA clinicians’ access to documented results for primary care services provided to
  women Veterans and their acknowledgement of these results. OIG found that results for Pap smears
  and bone mineral density studies were readily accessible and abnormal results acknowledged in
  nearly 95 percent of cases. Abnormal results not acknowledged were limited to bone mineral density
  studies in patients with osteopenia or treated osteoporosis. Mammography results were accessible
  and abnormal results acknowledged in 97 percent of cases when these tests were performed at VHA
  facilities. However, when mammograms were performed through fee basis arrangements, results
  were accessible to VA clinicians in only 74 percent of cases.

  VHA Needs to Ensure Patients with Hip or Vertebral Fractures Treated for Osteoporosis
  OIG’s Ofﬁce of Healthcare Inspections assessed the extent to which VHA patients who experience
  a fracture of the hip or vertebra are appropriately evaluated and treated for osteoporosis. Using
  the Healthcare Effectiveness Data and Information Set measure for post-fracture osteoporosis
  management, OIG determined that compliance among patients with two or more VHA primary
  care visits in the prior year was 45 percent. Men were less likely to be appropriately managed
  for osteoporosis after a fracture. Additionally, hip fractures were less likely to be associated with
  osteoporosis management when compared with vertebral fractures. OIG recommended that the
  Under Secretary for Health implement a plan to ensure that patients with hip or vertebral fractures are
  appropriately evaluated and treated for osteoporosis.

  OIG Evaluated VHA’s Quality Management Programs at 44 Facilities
  An evaluation was conducted by OIG to determine whether VHA facilities had comprehensive,
  effective QM programs designed to monitor patient care activities and coordinate improvement efforts.
  Furthermore, the evaluation reviewed whether VHA facility senior managers actively supported QM
  efforts and appropriately responded to QM results. Although all 44 facilities reviewed had established
  comprehensive QM programs and performed ongoing reviews and analyses of mandatory areas,
  4 facilities had signiﬁcant weaknesses. Senior managers at all facilities reported that they support
  their QM programs and actively participate. The Under Secretary for Health concurred with OIG’s ﬁve
  recommendations to improve operations.

  VHA Needs to Ensure Compliance with Physician Credentialing and Privileging
  The purpose of this evaluation was to determine whether VHA facilities complied with selected
  requirements for credentialing and privileging physicians. OIG performed the review at 35 VHA
  medical facilities during CAP reviews conducted from July 2009 through March 2010. VHA facilities
  generally met the VHA credentialing requirements reviewed; however, privileging practices could be
  strengthened if efforts were made to more thoroughly discuss, document, and monitor physicians’
  competence to perform the requested privileges. OIG recommended that the Under Secretary for
  Health, in conjunction with VISN and facility senior managers, ensure compliance with VHA privileging
  requirements.

                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
10 |
                                                                           Issue 64 | April 1, 2010 — September 30, 2010
Office of Healthcare Inspections


VHA Must Ensure Requirements Met for Contracted/Agency Registered Nurses
The purpose of OIG’s evaluation was to determine whether Registered Nurses (RNs) working in VHA
facilities through contracts or temporary agencies met the same entry requirements as RNs hired
as part of VHA facility staff. VHA facilities generally met requirements regarding contracted/agency
RNs; however, not all facilities completed required veriﬁcations, evaluations, and training prior to
contracted/agency RNs caring for patients and accessing medical records. OIG noted opportunities
for improvement in licensure veriﬁcation, background checks, competency evaluations, completion
of information security awareness and privacy awareness training, and maintenance of Advanced
Cardiac Life Support certiﬁcation. OIG made recommendations to ensure that all requirements are
met.

VHA Shows Improvements to Missing Patient Policies and Procedures
A follow-up review to a November 2000 OIG report on VHA missing patient policies and procedures
determined that VHA facilities were appropriately following up on missing patients and documenting
the outcomes of those efforts. Furthermore, the review found that staff are reporting missing patient
events in accordance with guidelines. Since the last evaluation, VHA has also shown substantial
improvement in the areas of elopement/wandering risk assessment and implementation of safety
measures; however, additional actions are needed related to applying assessment criteria, timing of
assessments, documenting proactive and concurrent safety measures, and placing Patient Record
Flags. OIG also found that VHA Directive 2008-057 provides confusing guidance related to the timing
of risk assessments, and that local policies did not always comply with other requirements as outlined
in the Directive. The Under Secretary for Health agreed with the ﬁndings and conclusions and
provided acceptable improvement plans.

Emergency Departments, Urgent Care Clinics Meet VHA Standards for Uniform Delivery of
Healthcare
OIG performed a healthcare inspection of 46 VHA emergency departments (EDs) and urgent care
clinics (UCCs). The review found that VHA facilities’ EDs and UCCs generally met VHA guidelines;
however, ED/UCC operations could be strengthened in the areas of documentation, competency
evaluations, and privileging requirements. OIG recommended that VHA reinforce compliance with
transfer and discharge documentation requirements, and ensure compliance with VHA competency
evaluations and privileging requirements.

Hotline Reports
Endoscope Reprocessing Issues Substantiated at St. Louis, Missouri, VAMC
OIG conducted an inspection in response to allegations of ongoing endoscope reprocessing issues
and breakdowns in communication with regard to adverse events and outcomes at the VAMC in
St. Louis, MO. OIG substantiated the allegations and identiﬁed several items related to reusable
medical equipment reprocessing and staff safety that need improvement to meet VHA policy
requirements.

Poor Coordination and Communication Resulted in Delays in Veteran Care at Orlando VAMC
OIG conducted an inspection in response to allegations of inadequate coordination of care with Fee
Basis Service (FB), Interfacility Consults (IFC), and Project Health Effectiveness through Resource

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 11
Issue 64 | April 1, 2010 — September 30, 2010
                                                 Office of Healthcare Inspections


  Optimization (HERO) at the Orlando, FL, VAMC. OIG conﬁrmed that Veterans experienced delay of
  medical care due to poor coordination and communication in the care management system; however,
  no patients were harmed because of these delays. OIG conﬁrmed that the FB authorization letter
  and communication between FB staff and Veterans needed improvement, and that the VAMC had
  not established a formalized system to ensure timeliness of care for Veterans requiring IFCs. The
  inspection found that Project HERO was not meeting its contractual performance benchmarks of
  100 percent compliance for timely referrals and communication with FB providers. HERO’s current
  performance benchmarks regarding access to care and return of medical records average 90 percent.
  The VISN and VAMC Directors concurred with the ﬁndings and recommendations.

  VA Care Not a Factor in Veteran’s Suicide
  A congressional request prompted OIG to evaluate the care of a Veteran who committed suicide
  5 days after discharge from a VHA medical facility. The patient was hospitalized for treatment of
  depression and anxiety, but denied having any suicidal ideations. OIG found that the patient received
  appropriate care and that clinicians made reasonable decisions and acceptable discharge plans based
  on what they knew about the patient’s home safety situation. At the time of discharge, the patient was
  competent to make decisions and did not voice suicidal ideations. The VISN and VAMC Directors
  agreed with the ﬁndings and OIG made no recommendations.

  VAMC’s Oversight of Human Subjects’ Research Activities Inadequate
  OIG conducted a healthcare inspection to determine the merit of allegations related to inadequate
  oversight of human subjects’ research and improper Institutional Review Board (IRB) actions that
  resulted in patient harm at a VAMC. No evidence was found that indicated the patient was harmed
  because of his removal from Protocol X or because of medical decisions made by an oncologist.
  Additionally, the IRB acted within its authority and took appropriate actions. OIG substantiated that
  responsible managers did not assure adequate oversight of human subjects’ research activities.
  Furthermore, some deﬁciencies previously identiﬁed by external review groups still existed, and
  OIG found inadequate documentation. OIG also questioned some management decisions related
  to peer review, study audits, and provider reprivileging. Management agreed with the ﬁndings and
  recommendations and provided acceptable improvement plans.

  Mortality Review Finds Allegations Not Substantiated at Saginaw, Michigan, VAMC
  OIG reviewed the validity of allegations regarding deaths at the Aleda E. Lutz VAMC in Saginaw,
  MI. The complainant speciﬁcally alleged that clinical staff failed to obtain appropriate requests for
  autopsy and did not appropriately report deaths to the Medical Examiner. OIG did not substantiate
  the allegations but did identify aspects of care warranting improvement for one patient. The VISN
  and VAMC Directors concurred with OIG recommendations to ensure that staff follow acute coronary
  syndrome guidelines, appropriately monitor patients at all times, follow national resuscitation guidelines
  and review all resuscitation efforts for compliance with those guidelines, and comply with VHA policy
  for Out-of-Operating Room Airway Management.

  ICU Alarm Turned Off at Lexington, Kentucky, VAMC
  OIG reviewed allegations that poor post-operative nursing care in the intensive care unit (ICU) led to
  complications resulting in a patient’s death at the Lexington, KY, VAMC. OIG concluded the nursing
  care provided in the intensive care unit was appropriate. OIG substantiated the allegation that the
  pulse oximeter alarm was turned off during a nursing shift. In addition, OIG found that nursing care

                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
12 |
                                                                           Issue 64 | April 1, 2010 — September 30, 2010
Office of Healthcare Inspections


ﬂow sheets and progress notes in the medical record were difﬁcult to navigate. OIG recommended
that alarm systems in the ICU remain activated and functional at all times, and that processes be
established to improve medical record documentation of nursing care in the intensive care unit.

Respiratory Care, Nurse Stafﬁng Issues Unfounded at Memphis, Tennessee, VAMC
Two anonymous complaints regarding respiratory therapy (RT) and nurse stafﬁng issues at the
Memphis, TN, VAMC prompted a review by OIG. OIG conﬁrmed that two RTs and a surgery resident
were unable to intubate a patient; however, OIG did not substantiate that this contributed to the
patient’s death. Medical record documentation clearly reﬂects that the patient was ventilated between
intubation attempts and RT competency ﬁles reﬂected appropriate certiﬁcation and competence in
airway management. OIG did not substantiate the other allegations and noted that actions were being
taken to enhance RT and nurse stafﬁng in both areas. OIG made no recommendations.

OIG Conﬁrmed Incorrect Administration of Medication to Battle Creek, Michigan, VAMC
Employee
OIG performed an inspection at the Battle Creek, MI, VAMC to determine the validity of allegations
regarding quality of care and privacy violations. OIG substantiated that an employee had an allergic
reaction and that epinephrine was administered incorrectly. Five of the complainant’s allegations
resulted in recommendations to the VISN and Medical Center Directors.

Abuse Allegations Not Substantiated Against Cleveland, Ohio, VAMC
OIG reviewed allegations related to patient abuse and quality of care at the Louis Stokes VAMC in
Cleveland, OH. The complainant provided limited information related to the alleged abuse; however,
we found no evidence of abuse based on our review of relevant documents and staff interviews.
Further, while the patient’s death did result from a perforated bowel during hernia repair surgery, this
is an unfortunate but known potential complication of the procedure. When the perforated bowel
and subsequent sepsis were discovered, clinical staff aggressively treated the patient’s multiple and
complex medical issues. OIG did not make any recommendations.

Review Conﬁrmed Inaccurate Documentation, Diagnosis at Dallas Health Care System
OIG reviewed the validity of allegations on quality of care issues in Geriatrics and Extended Care
Service at the VA North Texas Health Care System (HCS) in Dallas, TX. OIG substantiated that a
diagnosis of a coronary artery bypass graft was inaccurately documented in a patient’s history and
physical, and that a physician recommended removal of a patient’s cognitive impairment diagnosis
based on a brief cognitive exam. However, neither of these occurrences adversely affected patient
care. OIG made no recommendations.

Wait Times Allegations Not Substantiated Against Gainesville, Florida, VAMC
OIG performed a review of the Malcom Randall VAMC in Gainesville, FL, to determine the validity of
allegations relating to excessive wait times for radiology biopsies and cardiac catheterizations; lack of
sedation and inadequate recovery time for radiology biopsies; and radiology biopsies performed by
staff uncertiﬁed in Basic Life Support and Advanced Cardiac Life Support. OIG did not substantiate
the allegations and made no recommendations.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                           | 13
Issue 64 | April 1, 2010 — September 30, 2010
                                                  Office of Healthcare Inspections


  Healthcare Inspection Conﬁrms Delay in Cancer Diagnosis at Iowa City, Iowa, VAMC
  The purpose of OIG’s review was to determine the validity of allegations regarding a delay in cancer
  diagnosis and treatment and quality of care issues at the Iowa City, IA, VAMC. OIG substantiated that
  52 days elapsed from the time the patient’s initial computed tomography scan showed an abnormality
  to the biopsy indicating pancreatic cancer. OIG also substantiated that the patient was misinformed
  regarding non-VA care and reimbursement for travel. OIG recommended that the VISN and VAMC
  Directors monitor reporting of abnormal tests and make provisions for staff to refer patients to the
  appropriate administrative support ofﬁces when there are questions related to eligibility and travel pay.

  VHA Research and Development Expense Reporting Needs Improvement
  OIG conducted a healthcare inspection to review allegations concerning whether VA Research and
  Development (R&D) expenses were being over-reported by VAMCs to gain increased reimbursement
  funding. The review was initiated after an Administrative Investigation Board found inappropriate
  reporting of R&D projects that increased the Veterans Equitable Resource Allocation (VERA) funding
  for R&D expenses at the VA Maryland HCS by $15,500,000. The scope of the review was limited due
  to underlying R&D data integrity and validation issues. OIG recommended that the Under Secretary
  for Health establish: (1) a process that validates the Enterprise Project Management Information
  System and Research and Development Information System data with the VISN chief ﬁnancial ofﬁcers
  prior to submission to the Allocation Resource Center, and (2) an R&D management and tracking
  system to help facilities meet Congressional and other reporting requirements. Additionally, historical
  records should be maintained so that the Ofﬁce of Research and Development has the ability to
  support and explain any data variances between supporting data and the data reported in the VERA
  Table 8 allocation.

  Alaskan Patient Referrals and Transfers to the Lower 48 States Appropriate
  At the request of Senator Lisa Murkowski, OIG conducted a review of patient referrals and transfers
  from the VA HCS in Anchorage, AK, to VA specialty care providers in the lower 48 states. Factors
  related to Alaska’s location and geography pose challenges to providing a full range of health care
  services. In FY 2009, the system referred 4 percent of patients to the lower 48 states for specialty
  care either not available or with limited availability in Alaska such as spinal cord injury, neurosurgery,
  and neurology. The system complied with existing laws and regulations related to providing health
  care to Alaskan VA enrollees, and the transfer of these patients appears to be a reasonable use of
  resources. OIG made no recommendations.

  OIG Determines Wisconsin Patient’s Care Appropriate Despite Allegations
  At the request of the VA Secretary and Representative David R. Obey, the OIG performed a review
  to determine the validity of allegations regarding multiple care deﬁciencies at the Tomah VAMC and
  William S. Middleton Memorial Veterans Hospital in Tomah and Madison, WI, respectively. The
  complainant alleged that a patient died as a direct result of mismanagement of his antiarrhythmic
  cardiac medications and that the patient was denied beneﬁts for exposure to Agent Orange while
  stationed in Thailand during the Vietnam War. OIG did not substantiate most of the complainant’s
  speciﬁc allegations and determined that there was disparity between the complainant’s perception
  of the patient’s care and the actual care that was documented in the patient’s medical records. OIG
  made no recommendations.



                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
14 |
                                                                             Issue 64 | April 1, 2010 — September 30, 2010
Office of Healthcare Inspections

Patient’s Allegations Not Substantiated Against Portland, Oregon, VAMC
OIG conducted a healthcare inspection at the Portland, OR, VAMC to determine the validity of
allegations that a woman Veteran received inappropriate treatment. OIG conﬁrmed that the patient
was placed in a room with a shared bathroom; however, the adjacent room was empty. Although OIG
could neither conﬁrm nor refute that unit employees were insensitive to the patient’s disability, facility
managers agreed to conduct sensitivity awareness training. OIG made no recommendations.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 15
Issue 64 | April 1, 2010 — September 30, 2010
                                              Office of Audits and Evaluations


  Veterans Health Administration Reports
  OIG audits and evaluations of VHA programs focus on the effectiveness of health care delivery for
  Veterans. These audits and evaluations identify opportunities for enhancing management of program
  operations and provide VA with constructive recommendations to improve health care delivery.

  Improper Payments in Fee Care Program Could Reach $600 Million in 5 Years
  An OIG audit of the Non-VA Inpatient Fee Care Program determined that VAMCs improperly paid
  28 percent of claims due to inadequate guidance or a lack of understanding by fee staff on how to
  determine eligibility. OIG estimates that VHA made net overpayments of $120 million on inpatient
  care claims for Veterans in FY 2009. OIG estimated that without management action to strengthen
  the payment process that VHA could make $600 million in improper payments over the next 5 years.
  Additionally, inefﬁciencies occurred in the Fee Program because of its decentralized structure and
  labor-intensive payment system. Consolidating the Fee Program’s claim processing system could
  achieve a cost savings of $26.8 million in FY 2009, or $134 million over the next 5 years.

  VA Could Save $92 Million in Patient Transportation Contracts
  An OIG audit determined that VISN contract managers did not effectively provide the oversight
  needed to develop, administer, award, and monitor VHA patient transportation contracts. Additionally,
  Contracting Ofﬁcer’s Technical Representatives did not adequately review invoices before certifying
  payments. VHA missed opportunities to provide full and open competition in soliciting offers and
  awarding patient transportation contracts. Because Contracting Ofﬁcers did not always award
  transportation services competitively, and instead extended or awarded sole-source contracts, VA
  cannot be assured of obtaining the best price for the services. OIG made eight recommendations to
  improve VHA’s oversight of patient transportation contracts that could save VA $92 million over 5 years
  if implemented.

  VA Could Save $38.5 Million on Health Care Stafﬁng Services with Better Contracting
  Practices
  An audit of VISN procurements of FSS health care stafﬁng services determined that contracting
  ofﬁcers did not adequately review order prices and ensure compliance with Federal Acquisition
  Regulation (FAR) ordering and competition requirements during the period of review. In addition,
  the Procurement and Logistics Ofﬁce lacked an effective oversight process for health care stafﬁng
  services procurements and had not worked effectively with the National Acquisition Center (NAC) to
  implement adequate FSS procurement policies, procedures, and training. OIG projected that medical
  facilities overpaid FSS vendors about $5.8 million for labor and $1.8 million for travel expenses.
  Consequently, VHA could reduce its FSS health care stafﬁng services costs by about $38.5 million
  over the next 5 years if it strengthened its price evaluation and ordering practices and met competition
  requirements.

  CBOC System Needs Comprehensive Controls
  An OIG audit determined that VHA lacks a comprehensive CBOC management control system. VHA
  also lacks reasonable assurance that CBOCs provide consistent, quality care in accordance with VA
  policy. To address these ﬁndings, VHA needs to establish CBOC-speciﬁc monitors and evaluations
  that can identify systemic problems and deviations from the standard of care.



                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
16 |
                                                                          Issue 64 | April 1, 2010 — September 30, 2010
Office of Audits and Evaluations


Millions at Risk to Fraud in Non-VA Fee Care Program
OIG’s review of fraud management for the Non-VA Fee Care Program found that although Federal law
requires agencies to maintain controls that safeguard against fraud, VHA has not established controls
designed to prevent and detect fraud primarily because it had not identiﬁed fraud as a signiﬁcant risk
to the Fee Program. OIG estimates that the Fee Program could be paying between $114 million and
$380 million annually for fraudulent claims. OIG recommended that the Under Secretary for Health
establish a fraud management program with controls such as data analysis and high-risk payment
reviews, system software edits, employee fraud training, and fraud awareness and reporting.

VHA Lacks Formal Guidance for Issuing Guide and Service Dogs
OIG evaluated VHA’s progress in providing guide and service dogs to qualiﬁed Veterans. While VHA
has assisted visually impaired Veterans in obtaining guide dogs for several decades, VHA only began
assisting mobility and hearing impaired Veterans with service dogs in 2008—6 years after originally
being authorized. Since 2008, VHA’s authorization of service dogs has been limited to only eight
Veterans. VAMCs lack sufﬁcient guidance to ensure consistent decisions on Veterans’ requests
for service dogs. Additionally, VHA is unsure of the actual demand for service dogs and is in the
process of determining the appropriateness of using service dogs to assist Veterans with mental
impairments. OIG recommended that VHA issue comprehensive interim guidance until VHA’s draft
regulation addressing service dogs is ﬁnalized. The Under Secretary for Health agreed and stated
that immediately after the draft regulation is published, VHA will issue a directive deﬁning VHA’s policy
on issuing service dogs.

System Failed to Send Reminder Postcards for Optical Patients at Portland, Oregon, VAMC
OIG reviewed the validity of an allegation that senior ofﬁcials in VISN 20 instructed employees at the
Portland, OR, VAMC to use unauthorized wait lists to hide access and scheduling problems. OIG
did not substantiate the allegation. However, OIG found that the VAMC’s automated recall system
failed to generate and distribute postcards to over 2,900 patients to remind them to schedule follow-
up eye appointments, which resulted in delayed care. To address this issue, VAMC staff stated that
in September 2009, they enabled the recall system to print the postcards and began monitoring to
ensure the recall system mailed the postcards. OIG recommended that the VAMC ensure patients
who did not receive a reminder postcard are contacted to remind them to schedule their follow-up
care. In response, the VAMC took immediate actions to ensure reminder notiﬁcations were issued.

Veterans Benefits Administration Audits and Evaluations
OIG performs audits and evaluations of VBA programs, focusing on the effectiveness of beneﬁts
delivery to Veterans, dependents, and survivors. These audits and evaluations identify opportunities
for enhancing the management of program operations and provide VA with constructive
recommendations to improve the delivery of beneﬁts.

Program Weaknesses Result in $111 Million in Improper Post-9/11 GI Bill Emergency Payments
OIG reviewed a hotline allegation that inadequate controls during VBA’s emergency payment initiative
resulted in payments to ineligible recipients. The review substantiated that VA inappropriately provided
37,700 emergency payments totaling approximately $111 million to ineligible recipients. VA rushed to
plan and execute the initiative in order to prevent further hardship to students affected by signiﬁcant
delays in implementing the Post-9/11 GI Bill. VA lacked a contingency plan for emergency payments,


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 17
Issue 64 | April 1, 2010 — September 30, 2010
                                              Office of Audits and Evaluations


  did not clearly communicate eligibility rules, and lacked adequate controls to determine eligibility for
  emergency payments. As such, the emergency payment initiative resulted in increased administrative
  burdens and an estimated loss of about $87 million in unrecoverable debts. OIG recommended that
  the Acting Under Secretary for Beneﬁts develop a contingency plan for future advance payments that
  includes clear communication on service member eligibility and controls to check for eligibility.

  VBA Call Centers Can Do Better Job Providing Veterans with Timely, Accurate Information
  OIG audited the VBA’s call centers and internet-based Inquiry Routing and Information System (IRIS)
  to determine whether Veterans are provided with timely and adequate information. For FY 2009, OIG
  concluded that any one call placed by a unique caller had only a 49 percent chance of reaching an
  agent and getting the correct information. This occurred because VBA did not have a central entity
  to provide leadership and guidance, establish sufﬁcient performance standards to evaluate timeliness
  and accuracy, provide adequate training, and implement an efﬁcient call-routing system. VBA initiated
  some corrective measures and plans to implement a new process in FY 2011 to route calls more
  efﬁciently. After modifying procedures and providing refresher training, call center and IRIS staff
  compliance with safeguard personal information increased to 96 and 93 percent, respectively.

  Veterans Benefits Administration Benefits Inspections
  The Beneﬁts Inspection Program is part of OIG’s efforts to ensure our Nation’s Veterans receive
  timely and accurate beneﬁts and services. These independent inspections provide recurring
  oversight of VA Regional Ofﬁces (VAROs), focusing on disability compensation claims processing and
  performance of Veteran Service Center operations. The objectives are to evaluate how well VAROs
  are accomplishing their mission of providing Veterans with convenient access to high quality beneﬁts
  services; determine if management controls ensure compliance with VA regulations and policies;
  assist management in achieving program goals; minimize the risk of fraud, waste, and other abuses;
  and identify and report systemic trends in VARO operations. Beneﬁts Inspections may also examine
  issues or allegations referred by VA employees, members of Congress, or other stakeholders.

  The Beneﬁts Inspection Division issued 8 reports during the period April 1, 2010, through September
  30, 2010. In August 2010, the Beneﬁts Inspection Division expanded its capacity to provide recurring
  oversight of VAROs by adding a second ﬁeld ofﬁce located in San Diego, CA. The addition of the
  San Diego ﬁeld ofﬁce will enable the OIG to conduct inspections at all VAROs on a more frequent
  basis and perform follow-up visits to ensure continuous oversight. Key summary results from those
  inspections include:

  • 	 Claims processing: 27 percent of beneﬁt claims requiring a rating decision were processed in
      error. These errors involved claims related to PTSD, Traumatic Brain Injury, herbicide exposure-
      related disabilities, and temporary 100 percent evaluations.

  • 	 Veterans Appeals and Record Locator System (VACOLS) compliance: 37 percent of Notice of
      Disagreements were not timely controlled for workload management in VACOLS.

  • 	 Systematic Analyses of Operations (SAOs): VARO staff did not timely and accurately complete
      24 (29 percent) of 82 SAOs. The inadequate SAOs represent missed opportunities for VAROs to
      identify existing or potential problems and propose corrective actions.


                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
18 |
                                                                          Issue 64 | April 1, 2010 — September 30, 2010
Office of Audits and Evaluations


• 	 Mail Handling Procedures: 17 percent of search mail was not properly controlled or associated
    with the claims ﬁles. Consequently, beneﬁciaries may not have received accurate and timely
    beneﬁt payments.

• 	 Incompetency Determinations: VARO staff unnecessarily delayed making ﬁnal decisions in
    54 (50 percent) of the 127 incompetency determinations reviewed at 5 VAROs. Delays increase
    the risk of an incompetent beneﬁciary receiving beneﬁts payments without a ﬁduciary to manage
    those beneﬁts and ensure the beneﬁciary’s welfare.

American Recovery and Reinvestment Act of 2009 Reports
Risk Management Plan Would Improve Accountability, Transparency in ARRA-Funded State
Home Construction Projects
OIG performed an audit of VHA’s expenditure of American Recovery and Reinvestment Act of 2009
(ARRA) funds provided to the State Home Construction Grant Program (SHCGP). ARRA provided
$150 million to SHCGP, and VHA is required to obligate these funds by September 30, 2010. As of
December 31, 2009, VHA had obligated about 94 percent. OIG determined that SHCGP managers
need to improve accountability and transparency by developing a risk management plan that identiﬁes
all potential risks and implements adequate strategies to mitigate these risks.

Deployment of Post 9/11 GI Bill Long Term Solution Has Been Partially Effective
OIG also evaluated the effectiveness of the Ofﬁce of Information and Technology’s (OI&T’s) plan
for developing a Long Term Solution (LTS) for Post 9/11 GI Bill implementation. OI&T’s plan for
LTS deployment has been partially effective; however, OI&T could improve the effectiveness of
future LTS releases by conducting periodic independent reviews and instituting cost controls to help
address system development and implementation issues. OIG recommended that OI&T develop
and implement processes and controls to help ensure that future LTS releases achieve performance
and cost objectives as well as meet scheduling timelines. OI&T concurred with the ﬁndings and
recommendations and outlined plans to complete all corrective actions by August 2011.

VHA Needs to Strengthen ARRA Contract Review Processes and Monitoring
An OIG review evaluated VHA’s regulatory compliance for awarding ARRA funds for non-recurring
maintenance at VAMCs. Although VHA’s ARRA awards generally met competition objectives and
requirements, OIG determined that contract review processes needed strengthening to ensure
Contracting Ofﬁcers properly evaluated prospective contractors and completed required contractor
responsibility determinations before they awarded contracts and orders. In addition, 13 awards lacked
required ARRA clauses that are intended to ensure the efﬁcient and effective use of funds. OIG
made ﬁve recommendations for VA to develop a comprehensive policy on contractor responsibility
determinations and to strengthen its contract monitoring.

NCA Needs to Improve Management Processes Over ARRA Funds
OIG conducted a review to determine if NCA implemented effective policies and procedures to ensure
accountability and transparency for $50 million it received from ARRA. NCA needs to improve
management processes to guarantee efﬁcient administration of funds in line with ARRA accountability
and transparency objectives. OIG recommended the Acting Under Secretary for Memorial Affairs


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 19
Issue 64 | April 1, 2010 — September 30, 2010
                                               Office of Audits and Evaluations


  develop a formal process to document the prioritization and selection of future work requirements,
  ensure complete procurement information is recorded in the Electronic Contract Management System,
  and establish performance measurements that facilitate the monitoring and management of ARRA-
  related project outcomes.

  Other Reviews
  Inadequate Controls Could Double Cost of FLITE Strategic Asset Management Pilot Project
  OIG audited the Financial and Logistics Integrated Technology Enterprises (FLITE) program to assess
  the quality of oversight of the Strategic Asset Management (SAM) pilot project. Program managers did
  not effectively control project cost, schedule, performance, or ensure timely deliverables. As a result,
  VA is considering extending the SAM pilot project from 12 to 29 months, and potentially more than
  doubling the original contract cost of $8 million. OIG recommended the Assistant Secretary for OI&T
  and the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction (OALC) establish stronger
  program management controls as well as mitigate risks related to the successful accomplishment of
  the SAM project. Department leadership recently increased its scrutiny of FLITE management and
  placed additional project contracts on hold. Unless improvements are made, the outlook for the SAM
  pilot project remains tenuous.

  In a related review, OIG reviewed allegations regarding management of the SAM pilot project. OIG
  substantiated that FLITE program managers needed to improve their overall management of the
  SAM pilot project and partially substantiated that FLITE program managers did not ensure certain
  elements, normally considered necessary for a successful software development effort, were included
  in the FLITE program. The review did not substantiate that the SAM Project Manager pressured VA
  personnel to complete the contractor’s deliverables. OIG made additional recommendations to the
  Assistant Secretary for OI&T aimed at strengthening management controls.

  Teleradiology Contracts Lacking Information Security Protections and Oversight
  OIG evaluated the merits of a hotline complaint alleging a speciﬁc contractor was not appropriately
  protecting sensitive patient data while performing teleradiology services for VHA. OIG evaluated
  whether VHA was providing adequate oversight of speciﬁc vendor contracts to ensure they met
  VA’s information security requirements. Speciﬁc allegations of inadequate protections of sensitive
  patient data were substantiated, and OIG determined comprehensive procedures had not been
  effectively implemented to mitigate the risk of unauthorized disclosure of sensitive information. The
  Under Secretary for Health and Assistant Secretary for OI&T agreed with OIG’s recommendations to
  implement procedures to effectively mitigate the risk of unauthorized disclosure of sensitive patient
  data.

  Implementation of Homeland Security Presidential Directive 12 Over 2 Years Behind Deadline
  OIG evaluated VA’s progress in implementing a reliable and effective system of Personal Identity
  Veriﬁcation (PIV), in compliance with Homeland Security Presidential Directive 12 (HSPD-12), to
  improve the security of its facilities and to protect sensitive information stored in VA networks. Overall,
  VA has made little progress in meeting compliance with HSPD-12, and is almost 2 years behind the
  Government-wide October 2008 deadline. As of June 2010, VA had only issued approximately
  9 percent of the necessary credentials to its workforce, including contractors, and some were issued


                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
20 |
                                                                            Issue 64 | April 1, 2010 — September 30, 2010
Office of Audits and Evaluations


without the required background investigations. VA’s lack of progress occurred because it did not
make HSPD-12 implementation a priority and does not have an effective management structure in
place to adequately direct the Department-wide effort. The PIV system does not meet all critical
mission requirements, and controls needed to track and provide accountability over program costs
are weak. The Assistant Secretary for Operations, Security, and Preparedness concurred with OIG’s
ﬁndings and recommendations and provided target dates to complete planned actions.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                    | 21
Issue 64 | April 1, 2010 — September 30, 2010
                                                                Office of Investigations


  Veterans Health Administration Investigations
  The OIG Ofﬁce of Investigations conducts criminal investigations into allegations of patient abuse, drug
  diversion, theft of VA pharmaceuticals or medical equipment, false claims for health care beneﬁts, and
  other frauds relating to the delivery of health care to millions of Veterans. In the area of health care
  delivery, OIG opened 179 cases, made 129 arrests, and obtained over $3 million in ﬁnes, restitution,
  penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.

  During this reporting period, the OIG opened 48 investigations regarding diversion of controlled
  substances. Subjects of these investigations included VA employees, Veterans, and private citizens.
  Forty-two defendants were charged with various crimes relating to drug diversion. OIG also initiated
  11 investigations regarding fraudulent receipt of health beneﬁts. Seven defendants were charged with
  various crimes relating to the fraudulent receipt of health beneﬁts and court ordered payment of ﬁnes,
  restitution, and penalties amounted to $307,610.

  Oklahoma City, Oklahoma, VAMC Nurse Sentenced for Assault
  An Oklahoma City, OK, VAMC nurse was sentenced to 6 months’ incarceration and 1 year of
  probation after pleading guilty to assault and making a false statement. Additionally, the defendant
  must report his conviction to the Oklahoma Nursing Board. An OIG and VA Police investigation
  revealed that the defendant assaulted an 82 year-old dementia patient, who offered no resistance.
  The patient suffered a fractured leg and severe bruising and swelling on his arm and hand.
  Additionally, when interviewed by OIG agents, the defendant initially denied assaulting the patient.

  Veteran Indicted for Involuntary Manslaughter at Brecksville, Ohio, VAMC
  A Veteran was indicted on involuntary manslaughter and assault charges related to a ﬁght with another
  Veteran, now deceased, at the Brecksville, OH, VAMC. An OIG and VA Police investigation revealed
  that the decedent had complained of head and neck pain following an altercation with the defendant.
  Witness interviews and a forensic autopsy performed by the local coroner determined that the victim
  died of a traumatic head injury. The coroner ruled this case a homicide.

  Former Palo Alto, California, Patient Sentenced for Assault of VA Physician
  A former VA patient at the Palo Alto, CA, VAMC was sentenced to 33 months’ incarceration after
  pleading guilty to forcibly assaulting a VA physician while in the performance of her ofﬁcial duties. An
  OIG and VA Police investigation revealed that the defendant unexpectedly attacked the VA physician
  from behind and struck her in the head with a closed ﬁst. The physician was knocked unconscious,
  fell to the ﬂoor, and sustained severe injuries that required hospitalization.

  Veteran Pleads Guilty to Assaulting Physician at the Tuskegee, Alabama, VAMC
  A Veteran pled guilty to assaulting a VA physician at the Tuskegee, AL, VAMC after an OIG
  investigation revealed that he trapped the physician in an examination room and then threatened to
  assault and kill the physician after his request for prescription narcotics was declined.

  Patient Arrested at the White River Junction, Vermont, VAMC for Assault
  A patient was arrested at the White River Junction, VT, VAMC after assaulting the VA Chief of Police
  Services. An OIG and VA Police investigation revealed that the defendant was approached by law
  enforcement after making threatening remarks, to include declaring war on the Government. While
  being restrained, the defendant struck the chief multiple times in the face.
                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
22 |
                                                                          Issue 64 | April 1, 2010 — September 30, 2010
Office of Investigations


Veteran Arrested for Possession of Firearms at Palo Alto, California, VAMC
A Veteran was arrested for possession of ﬁrearms on Federal property. An OIG and VA Police
investigation determined that the defendant, a recent Iraq war Veteran suffering from PTSD, made
statements to a Palo Alto, CA, VAMC physician that he wanted to harm and/or kill others. A search
of the defendant’s bag by VA Police revealed a loaded .22 caliber pistol, an unloaded .357 magnum
revolver, and ammunition for the .357 magnum. The defendant was subsequently interviewed and
arrested by OIG.

Veteran Arrested for Assaulting Philadelphia, Pennsylvania, VAMC Employee
A Veteran inpatient was arrested at the Philadelphia, PA, VAMC for assault after an OIG and VA Police
investigation revealed that the Veteran assaulted a VA employee while she was providing care to the
Veteran.

Veteran Arrested for Weapon Possession at Phoenix, Arizona, VAMC
A Veteran was arrested for possession of a stolen ﬁrearm while at the Phoenix, AZ, VAMC. An OIG,
VA Police, and Bureau of Alcohol, Tobacco, Firearms and Explosives (ATFE) investigation determined
that the defendant, a recent Iraq war Veteran, made statements to VAMC staff that if he “did something
crazy to be on television maybe that would help the next guy to get his beneﬁts.” A search of the
defendant’s car by VA Police revealed a loaded M-4 carbine that was reported stolen from the U.S.
Army and a combat Kevlar ballistic vest.

Veteran Arrested for Making Threats at Martinsburg, West Virginia, VAMC
A Veteran was arrested after threatening to shoot others and himself at the Martinsburg, WV, VAMC.
The Veteran stated that he was frustrated with the quality of his medical care.

Veteran Sentenced for Bomb Threat Made Towards Jackson, Mississippi, VAMC
A Veteran was sentenced to 18 months’ incarceration and 3 years’ supervised release after being
convicted of conveying threatening communications by telephone to the Jackson, MS, VAMC. An
OIG investigation disclosed that the defendant told VA employees that he was going to use plastic
explosives to blow up the facility. He provided speciﬁc locations where he was going to place the
explosives, including elevator shafts and the radiology department. During a subsequent interview, the
defendant described how to make homemade explosive devices and detonators.

Veteran Arrested for Leaving Threatening Voicemails at White River Junction, Vermont, VAMC
A Veteran was arrested after he admitted to leaving threatening voicemail messages at the White
River Junction, VT, VAMC. The defendant stated that he would blow up the place and use an AK-47
and MAC-10 to “go out in a blaze of glory.” During the interview, the defendant admitted to making
the phone calls and provided a written statement that said, “If you take away my disability, I will go
on a killing spree.” In 2009, the Veteran had terrorized another VAMC by threatening to make an
ammonium nitrate bomb.

Veteran Charged for Threatening Brecksvillle, Ohio, VAMC Employee
A criminal complaint was ﬁled against a Veteran, residing in the Brecksville, OH, VAMC domiciliary,
charging him with aggravated menacing. An OIG investigation determined that the defendant made a
threat to shoot a medical center employee in the head.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                     | 23
Issue 64 | April 1, 2010 — September 30, 2010
                                                                Office of Investigations


  Martinez, California, VA Outpatient Clinic Contract Employee Arrested for Bomb Hoaxes
  A former contract housekeeping employee, who worked at the Martinez, CA, VA Outpatient Clinic,
  was arrested after being indicted for using the VA public address (PA) system to make phony bomb
  threats on two separate occasions. The defendant stated over the PA system that there were bombs
  in the Community Living Center (CLC). The Veterans housed in the CLC were forced to evacuate the
  building after the second bomb threat was made. The defendant admitted to making the bomb threats
  to get out of work.

  Boston, Massachusetts, HCS Employee Charged with Theft of Drugs
  A Boston, MA, VA HCS employee was charged in a criminal information with acquisition of a
  controlled substance by deception or subterfuge. An OIG, VA Police, and local police investigation
  revealed that the defendant, a VA courier who transported prescription narcotics between various VA
  facilities, stole controlled substances, particularly oxycodone and Percocet, from prescription bottles
  packaged for Veterans.

  Portland, Oregon, VAMC Nurse Charged with Theft of Drugs
  A Portland, OR, VAMC nurse was charged with felony computer crime and identity theft. An OIG and
  VA Police investigation revealed that the defendant used his position to gain access to the identities
  of patients no longer under his care and then used the identities to access a VA narcotic dispensing
  machine, falsely recording that the narcotics were for these patients. The defendant then used the
  narcotics, to include fentanyl and midazolam, while on duty and providing health care services to
  Veterans.

  Brockton, Massachusetts, VAMC Employee Arrested for Drug Possession
  A Brockton, MA, VAMC environmental management service employee and a co-defendant were
  arrested for possession of controlled substances with intent to distribute. The arrests resulted from
  a 7-month OIG, Drug Enforcement Administration, and VA Police investigation involving undercover
  purchases. The VA employee was interviewed and confessed to selling prescription pills to individuals
  in and around the VAMC. The second defendant sold oxycodone to an undercover agent on two
  separate occasions during the operation.

  Former Martinsburg, West Virginia, Employee Sentenced for Drug Distribution
  A former Martinsburg, WV, VAMC food service employee was sentenced to 70 months’ incarceration
  and 60 months’ probation after pleading guilty to possession with intent to distribute cocaine base.
  During an OIG, Federal Bureau of Investigation (FBI), and VA Police investigation, the defendant
  sold crack cocaine to a conﬁdential informant on three occasions. During an unrelated investigation
  coordinated by a local drug task force, the defendant sold crack cocaine and heroin to another
  conﬁdential informant on two occasions. In addition, during a trafﬁc stop, state troopers found
  238 grams of crack cocaine in the defendant’s vehicle.

  Former Sacramento, California, VAMC Employee Charged with Drug Theft
  A former Sacramento, CA, VAMC employee was charged with obtaining controlled substances by
  misrepresentation or fraud. The defendant, a registered nurse, admitted to OIG agents that he had
  been diverting fentanyl, morphine, hydromorphone, and methadone for several months and ingesting
  the controlled substances while working.


                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
24 |
                                                                          Issue 64 | April 1, 2010 — September 30, 2010
Office of Investigations


Veterans Arrested for Drug Distribution at Philadelphia, Pennsylvania, VAMC
Four Veterans were arrested for distribution of class II and class III narcotics, to include Percocet,
Xanex, and Suboxone pills. An OIG, VA Police, and local police investigation at the Philadelphia,
PA, VAMC revealed that the defendants sold various drugs during an undercover operation to a
conﬁdential informant and an undercover police ofﬁcer over a period of several months. A ﬁfth
Veteran who was charged remains a fugitive, and a sixth Veteran expired prior to being arrested.

Nashville, Tennessee, VAMC Registered Nurse Arrested for Drug Diversion
A Nashville, TN, VAMC registered nurse was arrested after being indicted for obtaining a controlled
substance by fraud and theft of property. An OIG investigation revealed that the defendant diverted
hydrocodone and hydromorphone intended for patients on at least eight occasions between January
and March 2010.

Veteran Arrested for Drug Distribution at Hampton, Virginia, VAMC
A Veteran was arrested for multiple charges of possession with intent to distribute heroin and a charge
for the sale of narcotics in the vicinity of a school. On several occasions, the Veteran sold heroin to
conﬁdential informants at the Hampton, VA, VAMC and on the streets in proximity to a school. At the
time of his arrest, the defendant possessed 70 bags of heroin.

Man Convicted of Theft for Using Brother’s Identity
The brother of a Veteran was convicted of theft of Government funds after an OIG and Social Security
Administration (SSA) OIG investigation determined that the defendant utilized the Veteran’s identity to
obtain medical care from two VAMCs, as well as VA pension beneﬁts and SSA identiﬁcation cards in
the name of the Veteran. The loss to the Government is $120,063.

Veterans Charged with Travel Voucher Fraud
Ten Veterans were indicted for fraud after OIG investigations determined that they submitted fraudulent
vouchers for cash reimbursement for travel expenses. The Veterans were claiming to travel hundreds
of miles roundtrip from their residences to VAMCs. In each case the defendants grossly exaggerated
the distance traveled to and from the VAMCs.

Veterans Benefits Administration Investigations
VA administers a number of ﬁnancial beneﬁts programs for eligible Veterans and certain family
members. Among the beneﬁts are VA guaranteed home loans, education, insurance, and monetary
beneﬁts provided by the Compensation and Pension (C&P) Service. With respect to VA guaranteed
loans, OIG conducts investigations of loan origination fraud, equity skimming, and criminal conduct
related to management of foreclosed loans or properties. In the area of monetary beneﬁts, OIG
opened 319 cases, made 88 arrests, and had nearly $28 million in ﬁnes, restitution, penalties, and civil
judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.

C&P investigations routinely concentrate on payments being made to ineligible individuals. For
example, a beneﬁciary may feign a medical disability to deliberately defraud the VA compensation
program. The VA pension program, which is based on the beneﬁciary’s income, is often defrauded by
individuals who fail to report income in order to stay below the eligibility threshold for these beneﬁts.
An ongoing proactive income veriﬁcation match identiﬁes possible fraud in the pension program.

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 25
Issue 64 | April 1, 2010 — September 30, 2010
                                                              Office of Investigations

  OIG also conducts an ongoing death match project that identiﬁes deceased beneﬁciaries of the VA
  C&P program whose beneﬁts continue because VA was not notiﬁed of the death. Generally, family
  members of the deceased are responsible for this type of fraud. In this reporting period, the death
  match project recovered $4.4 million, with another $2.6 million in anticipated recoveries. During this
  reporting period, OIG opened 271 investigations regarding death match cases, ﬁduciary fraud, identity
  theft, and Veterans/widows fraudulently receiving VA compensation and pension funds. One-hundred
  ﬁfty-eight defendants were charged with crimes and court ordered payment of ﬁnes, restitution, and
  penalties amounted to over $8,987,875 million. These investigations include 17 “Stolen Valor” cases
  resulting in 5 defendants being charged and $240,048 in court ordered payment of ﬁnes, restitution,
  and penalties.

  Fourteen Defendants Sentenced for Fraud
  Fourteen defendants, previously indicted on charges of conspiracy to defraud the United States,
  bribery of a public ofﬁcial, theft of Government funds, and money laundering stemming from an
  investigation by OIG and FBI have been sentenced. The defendants included a former VARO
  employee, a former Veterans Service Ofﬁcer (VSO), a former Marine F-18 pilot, the mother of the
  VSO, and other Veterans. Sentences in this case ranged from probation to 68 months’ incarceration;
  most of the 14 defendants received between 12 to 30 months’ incarceration. In November 2008,
  the defendants were indicted for ﬁling fraudulent claims with VA. The investigation revealed that
  the former VA employee and former VSO employee recruited friends, family members, and other
  acquaintances to submit fraudulent VA disability claims. All fraudulent claims were supported with
  counterfeit or altered medical documentation from either VA or private physicians as proof of the
  disability. The former VA employee and the former VSO employee received kickbacks from the
  Veterans receiving large retroactive checks. Most of the Veterans were rated 100 percent disabled
  and were deemed “permanent and total,” which could have resulted in no future review of their
  claim. The majority of Veterans received monthly payments in excess of $2,700. The loss to VA is
  approximately $2 million.

  Fiduciary and Wife Indicted for Misappropriation
  An attorney and his wife, who worked with him at his law ofﬁce, were indicted for misappropriation
  by a ﬁduciary, conspiracy, false statements, and tax fraud. A joint investigation conducted by VA
  OIG, SSA OIG, and Internal Revenue Service (IRS) Criminal Investigations Division revealed that
  while the attorney was serving as both a court-appointed guardian and ﬁduciary, he and his wife
  stole approximately $2.3 million from the bank accounts of 54 Veterans. Additionally, they failed
  to report the misappropriated funds as income on their tax returns. The attorney also served as a
  representative payee for 14 of those Veterans’ Social Security beneﬁts.

  Former Fiduciary Arrested for Larceny
  A former VA ﬁduciary was arrested for larceny in regard to the theft of a disabled Veteran’s funds. An
  OIG investigation revealed that the defendant, who served as the Veteran’s VA ﬁduciary from June
  2005 through May 2008, stole over $40,000 from the Veteran for her own personal use and took steps
  to deceive VA, to include creating and submitting fraudulent bank statements.

  Former Fiduciary Pleads Guilty to Misappropriation
  A former ﬁduciary pled guilty to a criminal information charging her with misappropriation by a
  ﬁduciary. An OIG investigation revealed that the former ﬁduciary stole $47,000 from a Veteran and

                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
26 |
                                                                         Issue 64 | April 1, 2010 — September 30, 2010
Office of Investigations

used the funds for personal use.

Son of VA Beneﬁciary Indicted for Misappropriation of Beneﬁts
The son of a VA beneﬁciary was indicted for making false statements. An OIG investigation revealed
that from 2003 to 2006, while serving as his father’s ﬁduciary, the defendant misappropriated $157,517
of his father’s funds for his personal use and falsiﬁed annual accounting reports to the VARO.

Veteran’s Daughter and Son-In-Law Arrested for
Exploitation
The daughter and son-in-law of an incompetent Veteran,
who were acting as primary caregivers, were arrested
for exploitation of the disabled/elderly, obtaining
property by false pretenses greater than $100,000, and
conspiracy to obtain property by false pretenses. Just
prior to this arrest, the son-in-law and his brother were
arrested for breaking into and entering the Veteran’s
residence, and then stealing and pawning the Veteran’s
property. An OIG, SSA OIG, local law enforcement,
and social services investigation revealed that the
defendants stole $213,662 from the Veteran and
physically and mentally abused him for several years.
The Veteran receives funds from VA, SSA, and the
Defense Finance and Accounting Service, as well as a
monthly inheritance from his deceased mother’s estate.
Based on the investigation, the Veteran was assigned a
ﬁduciary and moved to a safe residential environment.

Veteran’s Daughter Sentenced for Theft of
Government Funds
The daughter of a Veteran, who was also the wife of a
state judge, was sentenced to 24 months’ incarceration,
320 hours’ community service, and a $50,000 ﬁne
after pleading guilty to theft of Government funds. An
OIG investigation determined that between 2001 and 2008, the defendant fraudulently received
VA pension beneﬁts on behalf of her father based on false ﬁnancial statements made to VA. The
investigation revealed that the defendant and her three siblings created an investment company for
the purpose of hiding their parents’ ﬁnancial assets. This action then made the parents eligible for
various Government beneﬁt programs, to include VA beneﬁts. The investment company’s partnership
agreement and company itself were created by the defendant’s husband while he was still in ofﬁce.
The defendant, who was also her father’s ﬁduciary, subsequently stole most of the fraudulently
obtained VA pension beneﬁts. The loss to VA is $110,848.

Veteran and Wife Plead Guilty to Fraud Involving Nearly $500,000 in Government Beneﬁts
A Veteran and his wife pled guilty to conspiracy, theft of Government funds, and wire fraud.

Additionally, a VSO entered a pretrial diversion agreement for coaching the Veteran to defraud VA. 

An OIG and SSA OIG investigation determined that the Veteran received VA and SSA beneﬁts for the 


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                    | 27
Issue 64 | April 1, 2010 — September 30, 2010
                                                               Office of Investigations


  loss of use of both his feet and that he and his wife made numerous statements dating back to 1999
  alleging his inability to ambulate without a wheelchair. However, the Veteran was observed on several
  occasions partaking in activities that would not have been possible with his purported ambulatory
  loss. Based upon the false statements, the Veteran fraudulently received $329,673 in VA beneﬁts and
  $165,234 in SSA beneﬁts.

  Veteran Who Fraudulently Obtained Purple Heart Pleads Guilty to Theft of VA Funds
  A Veteran, who was also a VA employee, pled guilty to the theft of Government funds and the unlawful
  wearing of a service medal after an OIG investigation revealed he ﬁled
  fraudulent documents with the U.S. Air Force and VA claiming to have been
  wounded in Vietnam. Based upon the fraudulent claims and counterfeit
  documents, the U.S. Air Force awarded the Veteran a Purple Heart. The
  Veteran then used the Purple Heart and a self-inﬂicted gunshot wound,
  received 20 years after his military service, to obtain compensation beneﬁts
  from VA. The loss to VA is approximately $180,000.

  Veteran Sentenced for Theft of Government Funds
  A Veteran was sentenced to 366 days’ incarceration and ordered to pay
  restitution of $11,098 to VA after pleading guilty to theft of Government
  funds and false claims about receiving military decorations. An OIG and
  U.S. Coast Guard Investigative Service investigation revealed that the
  defendant falsiﬁed a DD-214 when transferring from the Navy to the Coast
  Guard in 1979. During his service with the Coast Guard, the defendant
  continued to falsify his DD-214 and service record. The defendant retired
  from the Coast Guard after 11 years, during which time he represented
  himself as a Navy Seal who received multiple Silver Stars, Bronze Stars,
  Purple Hearts, and other medals for valor. The defendant applied for and
  received PTSD beneﬁts from VA based on multiple false combat stressors.

  Veteran Indicted for Fraud Exceeding $500,000 in Government
  Beneﬁts
  A Veteran was indicted for VA beneﬁts fraud, Social Security fraud,
  education beneﬁts fraud, and tax evasion. A multiagency investigation
  revealed that the Veteran and his wife conspired to falsify their own and
  others’ tax returns while hiding their income from VA, SSA, and the
  Department of Education in the process. The loss to VA is over $200,000,
  with the total loss to the Government exceeding $500,000.

  Veteran and Wife Plead Guilty to Fraud Charges for Feigned Paralysis
  A Veteran and his wife pled guilty to conspiracy, false statements, and fraud
  charges. An OIG and SSA OIG investigation determined that the Veteran
  was receiving both VA and Social Security beneﬁts for paralysis caused by
  a 2004 automobile accident occurring while the Veteran was in the military.
  During the investigation, it was determined that the Veteran could walk with
  no apparent difﬁculties and, along with the assistance of his wife, had been
  feigning paralysis in order to fraudulently collect VA and Social Security
  beneﬁts. The loss to the Government is approximately $175,000.
                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
28 |
                                                                          Issue 64 | April 1, 2010 — September 30, 2010
Office of Investigations


Veteran and Wife Plead Guilty to Theft Involving Unemployability Beneﬁts
A Veteran and his wife pled guilty to theft of Government funds after an OIG and SSA OIG
investigation revealed that the Veteran fraudulently received VA and SSA beneﬁts after claiming
that he was unemployable due to his disabilities. The investigation determined that the Veteran
was employed as a long haul truck driver and allowed his employer to knowingly pay him using his
wife’s social security number in order to continue to receive fraudulent unemployability compensation
beneﬁts. The employer was also charged in this investigation with making false statements; plea
negotiations are continuing. The loss to VA is $71,816, and the loss to SSA is $48,174.

Veteran Convicted of Healthcare Fraud
A Veteran was found guilty at trial of health care fraud and false statements relating to health care
matters. An OIG and ATFE investigation revealed that for over 20 years the defendant, who is a
convicted felon, falsely represented to VA that he had extreme loss of vision in both eyes. The
Veteran received VA compensation for blindness that included a special monthly compensation. The
investigation revealed that the Veteran drove a vehicle, read, hunted with ﬁrearms, and performed
numerous activities that would not be possible with his purported vision loss. The Veteran still
faces two gun charges related to a felon in possession of a ﬁrearm and making a false statement to
purchase a ﬁrearm. The loss to VA is approximately $804,500.

Defendant Pleads Guilty to Misuse and False Statements
A non-Veteran pled guilty to misuse of a social security number and to making false statements related
to health care matters and was ordered to pay criminal forfeiture in the amount of $143,766. An
OIG and SSA OIG investigation revealed that the defendant stole the identity of a Veteran and then
redirected the Veteran’s VA beneﬁts and military retirement to his own bank account. The defendant
also used the Veteran’s personal information to enroll for VA health care and apply for an increase in
VA beneﬁts. The defendant subsequently attended a VA medical exam and was granted an increase
in compensation beneﬁts. The true Veteran was unaware that his beneﬁts had been diverted to
another account until contacted by OIG agents.

Veteran Sentenced for Tax Fraud
A Veteran was sentenced to 5 months’ incarceration, 5 months’ home conﬁnement, 1 year of
probation, and ordered to pay restitution of $113,297 to VA and $25,076 to the IRS after pleading guilty
to ﬁling a false tax return. An OIG and IRS Criminal Investigation Division investigation revealed that
the defendant was receiving VA individual unemployability compensation beneﬁts while employed in a
fulltime position earning $90,000 annually.

Veteran Who Submitted False Statements of Combat Activities Charged with Theft from VA
A Veteran was charged with theft after an OIG investigation revealed that the Veteran provided false
information to a VARO and a VAMC in support of his claim for VA disability compensation beneﬁts.
Between 2003 and 2006 the defendant submitted VA forms, along with pictures, and made false
statements attesting to his claims that he participated in combat activities while serving in the ﬁrst
Gulf War. The claims included hand-to-hand combat in the trenches, seeing fellow soldiers die,
seeing dead bodies inside burned-out tanks, and being “hit” in a chemical attack. The investigation
also revealed that the VARO relied on those statements when basing its decision to award service
connection for PTSD. The loss to VA is over $173,000.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 29
Issue 64 | April 1, 2010 — September 30, 2010
                                                                Office of Investigations


  Veteran’s Widow Charged with Theft of VA Beneﬁts
  A criminal information was ﬁled against the widow of a Veteran, charging her with theft of Dependency
  and Indemnity Compensation (DIC) beneﬁts. An OIG investigation revealed that the defendant failed
  to notify VA of her remarriage in September 1991 and that she continued to receive VA beneﬁts for
  which she was no longer eligible. The loss to VA is $221,474.

  Veteran’s Widow Sentenced for Theft of VA Funds
  The widow of a Veteran was sentenced to 18 months’ incarceration, 3 years’ probation, 80 hours’
  community service, and ordered to pay VA $207,892 in restitution after pleading guilty to theft of
  Government funds. An OIG investigation determined that, between August 1990 and December 2008,
  the defendant fraudulently received VA DIC beneﬁts by failing to report her remarriage.

  Son of Deceased Beneﬁciary Sentenced for Theft of Government Funds
  The son of a deceased VA beneﬁciary was sentenced to 7 months’ incarceration, 3 years’ probation,
  and ordered to pay restitution of $175,839 after pleading guilty to theft of Government funds. An OIG
  investigation revealed that the defendant stole VA beneﬁts that were direct deposited after his mother’s
  death in October 1996.

  Veteran Sentenced for Compensation Fraud
  A Veteran was sentenced to 27 months’ incarceration, 3 years’ supervised release, and ordered to
  pay restitution of $280,161 after being convicted of wire fraud, mail fraud, false statements, and Social
  Security fraud. An OIG and SSA OIG investigation revealed that the defendant fraudulently claimed
  to have suffered from PTSD after alleging that he witnessed a fellow sailor being badly burned in
  1984. The defendant was able to convince VA staff that he was so traumatized by the event that he
  was rated 100 percent service-connected with individual unemployability, along with Social Security
  disability beneﬁts. The investigation revealed that the defendant did not disclose to VA or SSA his
  activities as a volunteer ﬁreﬁghter, his membership on the county dive team, his memberships in
  various organizations, or that he was the owner and operator of a local tavern. The defendant also
  falsely claimed to associates that he was a Navy Seal and to VHA personnel that he saw combat
  in Grenada, Panama, and Lebanon. He subsequently recanted that he was ever a Navy Seal or in
  combat. The loss to VA is $166,116.

  Son of Deceased Beneﬁciary Sentenced for Theft
  The son of a deceased VA beneﬁciary was sentenced to 3 years’ probation and ordered to pay
  $204,032 in restitution after pleading guilty to theft. An OIG investigation revealed that the defendant
  submitted fraudulent documents to VA in order to continue to receive the VA beneﬁts for his own
  personal use after his mother’s death in April 1987.

  Veteran’s Brother Sentenced for Identity Theft
  The brother of a deceased Veteran was sentenced to 18 months’ incarceration and ordered to
  pay $173,000 in restitution after pleading guilty to wire fraud. An OIG and VA Police investigation
  determined that the defendant obtained VA medical and pension beneﬁts using his brother’s identity.

  Daughter of Deceased Beneﬁciary Agrees to Pay Restitution
  The daughter of a deceased VA beneﬁciary was found responsible for the theft of VA funds after a


                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
30 |
                                                                           Issue 64 | April 1, 2010 — September 30, 2010
Office of Investigations


civil suit was ﬁled by the United States Attorney’s Ofﬁce. An OIG investigation disclosed the daughter
stole VA beneﬁts issued after her mother’s death in July 2005. The daughter entered into a Consent
Judgment and agreed to pay VA $151,000, plus interest, and $350 in court costs.

Son of Deceased Beneﬁciary Pleads Guilty to Theft
The son of a deceased beneﬁciary pled guilty to theft of Government funds. An OIG investigation
revealed that the defendant failed to inform VA of his father’s death in March 2004 and subsequently
stole VA beneﬁts that were deposited to his father’s account. The loss to VA is approximately $94,000.

Son of Deceased VA Beneﬁciary Sentenced for Forgery
The son of a deceased VA beneﬁciary was sentenced to 12 months’ incarceration, 3 years’ probation,
and ordered to pay $191,669 in restitution after pleading guilty to forgery. An OIG investigation
determined that the defendant stole, forged, and negotiated VA beneﬁt checks issued after his
mother’s death in February 1990.

Former Wife of Deceased Veteran Pleads Guilty to Theft
The former wife of a deceased Veteran pled guilty to theft of public money and was subsequently
sentenced to 1 day of incarceration, 3 years’ probation, and ordered to pay VA restitution of $102,860.
An OIG investigation determined that the defendant submitted a fraudulent claim for death pension
beneﬁts and an altered death certiﬁcate indicating that she was married to the Veteran at the time of
his death. The defendant also submitted a fraudulent claim for a dependent child. The Veteran’s claim
ﬁle contained no record indicating that the child was his dependent.

Son of Deceased Beneﬁciary Sentenced for Theft of VA Funds
The son of a deceased VA beneﬁciary was sentenced to 24 months’ incarceration, 36 months’
probation, a $5,000 ﬁne, and ordered to pay $92,596 in restitution after pleading guilty to the theft of
Government funds. In 2001, the defendant, who was a loan ofﬁcer at a bank, assisted the Veteran
in opening a joint bank account at the defendant’s bank. In March 2004, the beneﬁciary died in a
foreign country and the son was notiﬁed of the death by the U.S. Department of State. The defendant
concealed the death from VA and then subsequently used VA beneﬁts for his personal beneﬁt. The
investigation revealed that the defendant used his position at the bank to facilitate the scheme to
defraud VA.

Veteran Sentenced for Mortgage Fraud
A Veteran was sentenced to 6 months’ incarceration, 10 years’ probation, and a $10,000 ﬁne after
pleading guilty to making false statements to obtain property or credit over $200,000. As part of his
plea agreement, the defendant agreed to testify against a mortgage broker who is also a target of
the investigation. As a result of this investigation, the mortgage broker was indicted for engaging in
organized criminal activity.

Realtor Charged with Making a False Statement
A realtor was charged in a criminal information with making a false statement. An OIG and FBI
investigation revealed that the defendant was working for a property management ﬁrm hired by VA to
rehabilitate foreclosed VA homes. The defendant and a local contractor conspired to submit bogus
bids to ensure that the contractor was awarded all of the realtor’s repair work on these foreclosed


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 31
Issue 64 | April 1, 2010 — September 30, 2010
                                                                Office of Investigations


  properties. For his part of the scheme, the defendant received 15 percent of the payments.

  Other Investigations
  OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations, false
  claims submitted by contractors, and other fraud relating to VA procurement activities. In the area
  of procurement practices, OIG opened 28 cases, made 12 arrests, and had over $24 million in
  ﬁnes, restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance, and
  recoveries.

  OIG also investigates theft of Information Technology equipment or data, network intrusions, identity
  theft, and child pornography. In the area of information management crimes, OIG opened 2 cases,
  made 1 arrest, and had $15,052 in ﬁnes, restitution, penalties, and civil judgments as well as savings,
  efﬁciencies, cost avoidance, and recoveries.

  Defendant Pleads Guilty to Embezzling $1 Million from Gulf Coast Veterans HCS Grants
  A defendant pled guilty to embezzlement of Federal program funds, mail fraud, and also consented
  to an asset forfeiture decree after a multiagency investigation revealed that, for over 4 years,
  she embezzled approximately $1,013,700 from the Louisiana Veterans Research and Education
  Corporation (LVREC) through Department of Defense grants given to the Gulf Coast Veterans HCS.
  LVREC is a non-proﬁt organization employing VA research specialists and contractors responsible for
  neurological research studies on Veterans before and after deployment to war zones. The defendant,
  who was a bookkeeper/accountant with LVREC, issued payroll checks to employees of the company,
  forged their signatures in order to deposit the funds to her own accounts, and falsiﬁed annual
  accountings of the assets for the LVREC. The defendant surrendered approximately $650,000 in
  cash, vehicles, and real estate to the Government.

  Veteran Arrested for Fraud and Forgery
  A Veteran was arrested after being indicted for
  wire fraud, mail fraud, and forgery of ofﬁcial U.S.
  Department or Agency seals. A multiagency
  investigation revealed that the Veteran was
  operating an internet-based printing business
  that sold counterfeit military and law enforcement
  awards and training certiﬁcates, including some
  documents bearing the ofﬁcial VA seal. The
  Veteran was not authorized to produce certiﬁcates
  bearing ofﬁcial U.S. Department or Agency seals.
  The investigation also revealed that advertising
  on the Veteran’s website contained several false
  statements, including that his certiﬁcates were
  authentic and exact reproductions of the original
  issue, and that he was the only civilian provider
  of military certiﬁcates with open contracts with
  the Navy, Army, and Coast Guard. The public
  fraud associated with this investigation has been
  determined to be over $260,000.

                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
32 |
                                                                           Issue 64 | April 1, 2010 — September 30, 2010
Office of Investigations


Defendants Arrested for Murder and Robbery
Two defendants were arrested for the murder and robbery of a Veteran participating in the The
Department of Housing and Urban Development and the Department of Veterans Affairs Supported
Housing Program. An OIG and a local police investigation revealed that the Veteran was murdered
in his subsidized apartment and his checkbook, debit card, and vehicle were stolen. The defendants,
who were known to the victim, overdrew the Veteran’s bank account into which his VA beneﬁts were
deposited. The murder of the Veteran appears to be ﬁnancially motivated as the defendants used the
stolen funds to purchase drugs.

Former CEO Sentenced for Fraud Involving Improvements for Nursing Home Facilities
The former Chief Executive Ofﬁcer (CEO) of a nursing home chain that received Federal funds
was sentenced to 366 days’ incarceration, 3 years’ probation, a $6,000 ﬁne, and ordered to forfeit
$500,000 to the Government after pleading guilty to fraud charges. A multiagency investigation
determined that the defendant conspired to create false invoices to obtain loans from lenders. The
loans were intended for the improvement of the nursing home facilities; instead, the funds were used
to pay for the CEO’s personal expenses, including the purchase of a number of apartment complexes.
Three other defendants were previously convicted in this case and are currently awaiting sentencing.

Pharmaceutical Subsidiaries Agree to $81 Million Settlement
Two subsidiaries of a major pharmaceutical company, Ortho-McNeil, agreed to an $81 million global
settlement to resolve criminal and civil liability arising from the illegal promotion of its epilepsy drug.
One of the subsidiaries agreed to plead guilty to a misdemeanor and pay a $6.14 million criminal ﬁne
for the misbranding of Topamax, an anti-epileptic drug approved for the treatment of partial onset
seizures, but not for psychiatric use. In addition to the criminal ﬁne, the second subsidiary will pay
$75.37 million to resolve civil allegations that it illegally promoted the drug and caused false claims
to be submitted to Government health care programs, to include VA, for a variety of psychiatric uses
that were not medically accepted indications. VA will receive approximately $2.9 million of the civil
settlement.

Pharmaceutical Company Settles in Off-Label Promotion Case for $72.5 Million
A major pharmaceutical company, Novartis, agreed to pay $72.5 million to resolve a civil false claims
act allegation that it illegally promoted the drug Tobi, an inhaled antibiotic used for the treatment of
certain cystic ﬁbrosis patients. The company marketed the drug for unapproved uses in patients that
did not meet the parameters of the FDA approved indicators. VA will receive $989,893 as part of the
settlement.

Executive Arrested for Fraud in Veteran Owned Set Aside Contracts
The CEO of a construction management and general contracting company that received VA and
Department of the Army construction contracts set aside for Service-Disabled Veteran-Owned Small
Businesses (SDVOSB) and Veteran-Owned Small Businesses (VOSB) was arrested for defrauding
the Government. An OIG, Small Business Administration OIG, and Army Criminal Investigation
Division investigation revealed that the defendant falsely self-certiﬁed that his company was an eligible
SDVOSB and VOSB when he bid on several Government contracts that he was later awarded. The
company presently has over $16 million in contracts with work ongoing at various VA facilities.



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                              | 33
Issue 64 | April 1, 2010 — September 30, 2010
                                                               Office of Investigations


  Former Corporate Recruiter Pleads Guilty to Defrauding Government
  A former recruiter for a corporation providing home health care services to VA pled guilty to
  knowingly and willfully defrauding a health care program. A multiagency investigation revealed that
  the defendant misrepresented dates and hours on corporation time sheets for services not rendered
  and forged signatures on timecards for a health care provider who never actually worked for the
  corporation. The time sheets were ultimately used to bill various health care programs.

  Defendants Arrested for Identity Theft
  A VA-contracted home health care provider and her cousin were arrested after being indicted for
  conspiracy, wire fraud, identity fraud, and bank fraud. An OIG and local law enforcement investigation
  revealed that the home health care provider stole the identity of a disabled Veteran during home visits
  and shared the information with her cousin. The defendants then used the information to steal nearly
  $36,000 from the Veteran’s bank account.

  Girlfriend of Las Vegas, Nevada, VAMC Employee Arrested for Theft
  The girlfriend of a Las Vegas, NV, VAMC employee was arrested for burglary, fraudulent use of a
  credit card, and retail theft after an OIG, General Services Administration OIG, and U.S. Secret
  Service investigation revealed that she and several co-conspirators used a VA credit card to make
  approximately $27,767 worth of fraudulent purchases.

  Shipping Supervisor Arrested for Drug Theft from Oklahoma City, Oklahoma, VAMC
  A United Parcel Service (UPS) supervisor was arrested for larceny of a controlled dangerous
  substance. An OIG, VA Police, and UPS investigation revealed that the defendant was stealing
  prescription morphine and oxycodone shipped from the Oklahoma City, OK, VAMC. The defendant
  confessed to stealing the drugs to support a drug habit. During the investigation, three other UPS
  employees were interviewed and subsequently resigned.

  Former Mail Carrier Sentenced for Theft
  A former U.S. Postal Service (USPS) rural carrier was sentenced to 24 months’ probation and a
  $1,000 ﬁne after having previously pled guilty to obstruction of U.S. mail and drug possession. An OIG
  and USPS OIG investigation revealed that the defendant stole VA prescription medication parcels,
  gift cards, and other valuables from the mail. In at least one instance, the defendant intercepted a
  Veteran’s pain medication and replaced it with acetaminophen.

  Former USPS Employee Sentenced for Theft of VA Narcotics
  A former USPS employee was sentenced to 60 months’ probation after pleading guilty to destruction
  of mail. An OIG and USPS OIG investigation determined that the defendant was stealing VA
  packages from the mail. Stolen VA narcotics were found on the defendant and in his vehicle at the
  time of his arrest.

  Former USPS Employee Arrested for Theft of Mail
  A former USPS employee was arrested after being indicted for theft of mail. During a VA OIG and
  USPS OIG investigation, the defendant admitted to stealing more than 2,000 tablets of VA medications
  from the mail and then selling the stolen medications.



                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
34 |
                                                                         Issue 64 | April 1, 2010 — September 30, 2010
Office of Investigations


USPS Employees Plead Guilty to Theft of VA Pharmaceuticals
A former USPS employee pled guilty to mail theft after an OIG and U.S. Postal Inspection Service
investigation, which included a sting operation, revealed that the defendant stole packages of VA
pharmaceuticals from the mail. Stolen VA narcotics were found in the defendant’s vehicle at the
time of his arrest. He subsequently admitted to stealing VA narcotics during the past year. A second
USPS employee pled guilty to theft by mail, after an OIG and USPS OIG investigation determined that
between December 2009 and April 2010 he diverted 12 shipments of VA prescribed narcotics from the
mail. Finally, a former USPS clerk, who is a service-connected Veteran, was sentenced to
2 years’ probation and 100 hours’ community service after pleading guilty to the destruction of
U.S. mail. An OIG and USPS OIG investigation revealed that the defendant stole 8 VA controlled
substance shipments, containing approximately 1,200 tablets of oxycodone, methadone, and
hydrocodone between September 2009 and January 2010.

Veteran Sentenced for Using Child Pornography at Palo Alto Nursing Home
A Veteran was sentenced to 5 years’ incarceration after pleading guilty to sexual exploitation of
minors. The defendant, a former inpatient at a VA nursing home, had two previous child pornography
convictions. During an OIG and VA Police investigation, the defendant admitted to using a computer
at the VA nursing home to access the internet and download sexually explicit images of minors. An
analysis by the OIG Computer Crimes and Forensics Lab found over two hundred child pornography
images on electronic media associated with the defendant.

Administrative Investigations
OIG’s Administrative Investigations Division independently reviews allegations and conducts
administrative investigations generally concerning high-ranking senior ofﬁcials and other high proﬁle
matters of interest to the Congress and the Department. During this reporting period, OIG issued
3 reports and 2 advisories containing 21 recommendations for administrative and corrective actions,
resulting in $28,614 in ﬁnes, restitution, penalties, and civil judgments as well as savings, efﬁciencies,
cost avoidance, and recoveries. The Division also investigated 25 allegations that were not
substantiated.

Investigation Substantiates Prohibited Personnel Practices, Abuse of Authority, Misuse of
Position, and False Statements in Ofﬁce of Human Resources and Administration
An administrative investigation substantiated that an Ofﬁce of Human Resources and Administration
senior ofﬁcial engaged in prohibited personnel practices, abused his authority, misused his position
to appoint two subordinates, and that he made false statements. Further, one of the subordinates
misused her ofﬁcial time; another misrepresented her income for a higher than minimum rate of
pay and made false statements; a Human Resources Specialist and a former Management Analyst
engaged in prohibited personnel practices; and a former Personnel Ofﬁcer failed to follow policy in
setting the higher than minimum rate of pay.

Prohibited Personnel Practices, Misuse of Position Substantiated in VHA HR Ofﬁce
An administrative investigation substantiated that a VHA Director of Human Resources Development
engaged in prohibited personnel practices when he twice gave preference in hiring to a friend. OIG
also found that a Human Resources Specialist, as a conference planner, improperly accepted gifts
from prohibited sources when she solicited and accepted hotel reward points and that she failed to


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 35
Issue 64 | April 1, 2010 — September 30, 2010
                                                                Office of Investigations

  testify honestly about receiving the points. The Human Resources Specialist further misused her
  ofﬁcial time, position, and VA-owned equipment to conduct personal business as well as business for
  her privately-owned company.

  Investigation Substantiates Improper Title 38 Pay for Administrative Assistant
  An administrative investigation substantiated that a Dental Hygienist worked as a fulltime
  Administrative Assistant and performed only Title 5 duties that did not require the knowledge, skills,
  and abilities of a Title 38 health care professional, resulting in her receiving over $28,000 in special
  pay supplementation to which she was not entitled. OIG also found that the VAMC Director, as well
  as other VAMC ofﬁcials, failed to take appropriate action to discontinue the Title 38 special pay for the
  Dental Hygienist performing fulltime in a Title 5 capacity.

  Employee-Related Investigations
  During this reporting period, OIG opened 27 investigations regarding criminal activities by VA
  employees (not including drug diversion). The types of crimes investigated included Workers’
  Compensation Fraud, theft from Veterans, and theft of VA property or funds. Nine defendants were
  charged with crimes and court ordered payment of ﬁnes, restitution, and penalties amounted to
  $1,302,774. Among them were the following:

  • 	 Two former Bedford, MA, VAMC employees were sentenced after being convicted of conspiracy,
      identity fraud, and access device fraud. The ﬁrst defendant was sentenced to 366 days’
      incarceration and 2 years’ supervised release. The second defendant was sentenced to 6 months’
      home conﬁnement and 2 years’ probation. Both defendants were ordered to pay joint restitution
      of $3,365. An OIG, VA Police, and U.S. Secret Service investigation revealed that the defendants
      stole checks, credit card numbers, and bank account numbers from several disabled Veterans who
      lived at the VAMC’s long-term care facility. The defendants shared the information with a third
      co-conspirator who was previously sentenced after pleading guilty. The three defendants used the
      Veterans’ accounts and identities to purchase goods and services over the telephone and internet.

  • 	 A former VA Compensated Work Therapy program employee pled guilty to conspiracy and theft of
      Government property after an OIG and VA Police investigation revealed that the defendant stole
      two computers from the Providence, RI, VAMC. Neither computer contained personally identiﬁable
      information (PII). The defendant admitted to stealing the computers and selling them to buy
      cocaine.

  • 	 A Nashville, TN, VAMC employee was indicted for activities related to time and attendance fraud
      and making false statements to Federal agents. An OIG investigation revealed that the defendant
      was teaching classes at a local university during his scheduled tour of duty at VA. The defendant
      held full-time employment positions at both the VAMC and the university during a 6-month period
      in 2006. The loss to VA is approximately $32,000.

  • 	 A Lyons, NJ, VAMC employee and an associate in the employee’s private practice pled guilty to
      health care fraud. An OIG, FBI, and state regulatory agency investigation revealed that the VA
      employee and the associate devised a scheme to misrepresent the associate’s qualiﬁcations and
      bill Government and private insurers at inﬂated prices for services not rendered. The employee
      also identiﬁed the VAMC’s facsimile number as the business’ facsimile number on the practice’s
      web site.
                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
36 |
                                                                           Issue 64 | April 1, 2010 — September 30, 2010
Office of Investigations


• 	 Two West Los Angeles, CA, VAMC respiratory therapists were arraigned on charges of grand
    theft for activities related to time and attendance fraud. An OIG investigation revealed that the
    defendants were working at outside employment during their scheduled working hours. The
    combined loss to VA is approximately $55,000.

• 	 A former Sepulveda, CA, VAMC employee was sentenced to 3 years’ probation and ordered to
    pay restitution of $20,000 after pleading guilty to grand theft. An OIG and VA Police investigation
    determined that the defendant fraudulently claimed overtime hours that she did not work.

• 	 A former Montgomery, AL, VARO employee was charged with theft of Government property after
    an OIG, IRS Criminal Investigation Division, and local police investigation disclosed that the former
    employee stole the names, social security numbers, and dates of birth of six Veterans from VARO
    ﬁles in order to ﬁle fraudulent tax returns. The fraudulently obtained refunds were then deposited
    into various bank accounts.

• 	 A St. Louis, MO, VAMC employee pled guilty to theft charges after admitting to stealing computers,
    monitors, and other VA property to pawn or trade for drugs and money. None of the computers
    contained PII. The approximate loss to VA is $122,000.

• 	 A Dallas, TX, VAMC employee was arrested for possession of child pornography after an
    OIG investigation revealed that the defendant used his VA computer to access and view child
    pornography while at the VAMC.

• 	 A former Phoenix, AZ, VAMC mail room employee was sentenced to 60 days’ deferred
    incarceration, 18 months’ probation, and ordered to pay restitution of $2,786 after pleading guilty
    to theft. An OIG and VA Police investigation determined that the defendant stole two VA desktop
    computers, a Government-issued credit card, and mail from the VA mail room. No PII was stored
    on the stolen computers.

• 	 A VA medical support assistant at the Alexandria, LA, VAMC pled guilty to false representation of
    a social security number after an OIG investigation determined that the defendant used his position
    to access and then use a VA patient’s social security number in order to fraudulently obtain credit
    cards and loans. The patient subsequently received multiple inquiries from creditors alleging that
    he had failed to pay on various lines of credit totaling approximately $16,000. As a result of this
    investigation, the victim was cleared of any responsibility for the fraudulent activity.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 37
Issue 64 | April 1, 2010 — September 30, 2010
                                                               Office of Investigations


  Threats Made Against VARO Employees
  During this reporting period, OIG initiated 25 criminal investigations resulting from threats made
  against VA facilities and employees. Sixteen defendants were charged with making threats as a result
  of the investigations. Among them was the following:

  • 	 A Veteran pled guilty to making threats against VA employees. An OIG investigation revealed that
      the defendant contacted his VSO representative at the Jackson, MS, VARO, after nine of his VA
      claims were denied and stated that he was going to kill one VA employee for each claim that the
      VARO had denied him. The defendant is also facing additional State charges for threats made to
      employees of a cellular phone company.

  Fugitive Felons Arrested with OIG Assistance
  Veterans and VA employees continue to be identiﬁed and apprehended as a direct result of the OIG
  Fugitive Felon Program. To date, 37.1 million felon warrants have been received from the National
  Crime Information Center and participating states resulting in 54,385 investigative leads being referred
  to law enforcement agencies. Over 2,092 fugitives have been apprehended as a direct result of these
  leads. Since the inception of the program in 2002, OIG has identiﬁed $753.3 million in estimated
  overpayments with an estimated cost avoidance of $868.5 million. Twenty-seven fugitive felon arrests
  were made by VA OIG agents with an additional 17 by other law enforcement agencies during this
  reporting period. Four of these arrests were of VAMC employees at various medical centers who were
  wanted on charges to include drug and probation violations. Apprehensions included the following:

  • 	 OIG, working with a U.S. Marshals Service Fugitive Apprehension Strike Team, arrested a Texas
      Department of Public Safety Top 10 Sex Offender. The Veteran was wanted for a parole violation
      stemming from a sex offense against a child and indecency with a child by sexual contact. The
      Veteran was arrested in Mississippi after ﬂeeing from Texas.

  • 	 A Veteran was arrested at the Jackson, MS, VAMC by OIG, assisted by local police, pursuant to
      felony warrants. The Veteran initially conveyed threats to blow up the Jackson, MS, VARO. The
      threats were vague in nature; however, during the course of the investigation, it was determined
      that the Veteran had outstanding felony warrants in both Mississippi and Alabama for selling and
      possessing cocaine. The Veteran’s criminal history spanned over 20 years and included prior
      arrests for assault, burglaries, bank robbery, drug offenses, and sexual battery. The Veteran is
      currently being held without bond pending extradition.




                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
38 |
                                                                          Issue 64 | April 1, 2010 — September 30, 2010
Office of Management and Administration


The Ofﬁce of Management and Administration provides comprehensive support services that promote
organizational effectiveness and efﬁciency through reliable and timely management and administrative
support, and through products and services that promote the overall mission and goals of OIG.

Operations Division
The Operations Division conducts follow-up reporting and tracking of OIG report recommendations;
provides strategic, operational, and performance planning; prepares and publishes OIG-wide
reports, such as the Semiannual Report to Congress; develops OIG policies and procedures;
and electronically distributes all OIG oversight reports. The Operations Division also promotes
organizational effectiveness and efﬁciency by managing all OIG contracting and providing reliable,
timely human resources management and related support services.

Information Technology and Data Analysis Division
IT staff promote organizational effectiveness and efﬁciency by ensuring the accessibility, usability,
and security of information assets; developing, maintaining, and enhancing the enterprise database
application; facilitating reliable, secure, responsive, and cost-effective access to VA databases and
electronic mail by all authorized employees; providing internet document management and control; and
providing support to all OIG components.

Data Analysis staff provide automated data processing technical support of OIG and other Federal
and governmental agencies requiring information from VA ﬁles. Data Analysis products facilitate
the identiﬁcation of fraud-related activities and support OIG comprehensive initiatives that result in
solutions beneﬁcial to VA.

Administrative and Financial Operations Division
The Administrative and Financial Operations Division is responsible for processing and reconciling all
OIG ﬁnancial transactions; implementing the standards and procedures for the design, construction,
furnishing, operation, maintenance and repair of all OIG headquarters and ﬁeld ofﬁce buildings by
way of space planning and facility management; as well as providing a diverse array of key support
services to OIG Headquarters and the ﬁeld, including real and personal property management; lock
and key services; and development and issuance of internal controls policy for administrative services.

Budget Division
The Budget Division promotes organizational effectiveness by providing a full complement of
budgetary formulation and execution services to management and organizational components,
including formulation of submissions and operating plans; monitoring allocations, expenditures, and
reserves; conducting ﬁnancial analyses; and developing internal budget policies.

Hotline Division
The Hotline Division is the focal point for contacts made to OIG, operating a toll-free telephone service
5 days a week, Monday through Friday, from 8:30 AM to 4:00 PM Eastern Time. Phone calls, letters,
and e-mails are received from employees, Veterans, the general public, Congress, the Government
Accountability Ofﬁce, and other Federal agencies reporting issues of criminal activity, waste, abuse,
and mismanagement. During this reporting period, the Hotline received 14,737 contacts, 460 of which

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 39
Issue 64 | April 1, 2010 — September 30, 2010
                           Office of Management and Administration

  became OIG cases. The Hotline also closed 394 cases during this reporting period, substantiating
  allegations 44 percent of the time. The following cases were initiated as a direct result of Hotline
  contacts:

  Contract Specialist Inappropriately Splits a Work Requirement Worth More than $6 Million
  A review conducted by the OALC conﬁrmed that a contract specialist gave preferential treatment to
  a Service-Disabled Veteran-Owned Small Business when she inappropriately split a planned work
  requirement and awarded two contracts to the business for more than $6 million. The review team
  also found that the contracts were fraught with a number of irregularities, but found no evidence of
  fraud or criminal intent. The review team recommended numerous changes in the processing of
  contracts, oversight reviews, and additional training to prevent recurrence.

  Widows Assessed Overpayments for Failing to Disclose Remarriages
  As a result of a telephone contact, the Montgomery, AL, VARO determined a widow who was granted
  DIC failed to notify the VARO of her 2006 remarriage. The widow was assessed an overpayment
  of $126,964. In a second review initiated by a hotline inquiry, another widow was also found to have
  withheld her remarriage from the VARO. She was assessed an overpayment of $114,488.

  Employee Receives Suspension for Intimidation, Harassment, and Coercion of Subordinates
  An Administrative Investigation Board (AIB) review conducted by the Atlanta, GA, VAMC found that a
  Licensed Practical Nurse (LPN) intimidated, harassed, and coerced coworkers and subordinates into
  contributing money for gifts for the Nurse Manager. The LPN also pressured employees to contribute
  $10 of their bonus money to the Nurse Manager as a “thank you” gesture. The AIB proposed
  suspensions and face-to-face ethics training for both employees. Additionally, refresher ethics training
  was proposed for all Unit employees.

  VARO Releases Personal Identiﬁable Information of Several Veterans
  A Montgomery, AL, VARO review determined that a Veteran, who requested a copy of his claim ﬁle,
  also erroneously received a list of Veterans’ names and social security numbers. The VARO notiﬁed
  the affected Veterans and provided credit monitoring. Employees also received refresher training in
  safeguarding PII.

  Employee on VA-approved Sick Leave Found to be Employed at Local College
  A review conducted by the Topeka, KS, VAMC Administrative Review Board, along with information
  received from a Freedom of Information Act request, found that an employee was teaching classes at
  a local college on some of the dates for which she was approved to take sick and Family and Medical
  Leave Act leave. Management proposed removal based on the review ﬁndings.

  Fee Basis Irregularities Found at Las Vegas, Nevada, VAMC
  A VISN 21 review found that the Las Vegas, NV, VAMC provided air and ground travel to its allergy
  patients and their companions to travel from Las Vegas to Los Angeles, CA, to receive allergy
  immunizations. The review estimated that each patient received 10 treatments. As a result of this
  Hotline inquiry, the facility will establish an agreement with a local Las Vegan allergist to provide
  treatment. Based on an estimated air fare of $320 round trip for patients and companions and $40
  ground transportation, the facility will realize a cost savings of $20,400.


                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
40 |
                                                                          Issue 64 | April 1, 2010 — September 30, 2010
Office of Contract Review


The Ofﬁce of Contract Review (OCR) operates under a reimbursable agreement with OALC to provide
preaward, postaward, and other requested reviews of vendors’ proposals and contracts. In addition,
OCR provides advisory services to OALC contracting activities. OCR completed 48 reviews in this
reporting period. The tables that follow provide an overview of OCR performance during this reporting
period.

Preaward Reviews
Preaward reviews provide information to assist VA Contracting Ofﬁcers in negotiating fair and
reasonable contract prices and ensuring price reasonableness during the term of the contract.
Preaward reviews identiﬁed $103 million in potential cost savings during this reporting period. In
addition to FSS proposals, preaward reviews during this reporting period included 18 health care
provider proposals—accounting for $21 million of the identiﬁed potential savings. Reports resolved
through negotiations by contracting ofﬁcers continue to sustain a high percentage of recommended
savings. For 12 reports, the sustained savings rate was 72 percent.

                                                     October 1, 2009—   April 1—September 30,
                                                                                                  FY Total
                                                      March 31, 2010            2010
    Preaward Reports
                                                           35                    35                 70
         Issued
       Potential Cost
                                                       $271,015,783         $103,428,550        $374,444,333
         Savings

Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions, including
compliance with the Veterans Health Care Act of 1992, P.L. 102-585, for pharmaceutical products.
OCR reviews resulted in VA recovering contract overcharges totaling over $19 million, including
$1.3 million related to Veterans Health Care Act compliance with pricing requirements, recalculation of
Federal ceiling prices, and appropriate classiﬁcation of pharmaceutical products. Postaward reviews
continue to play a critical role in the success of VA’s voluntary disclosure process. Of the 13 post
award reviews performed, 9 involved voluntary disclosures. In 6 of the 9 voluntary disclosure post
award reviews, OCR identiﬁed additional funds due.

                                                     October 1, 2009—   April 1—September 30,
                                                                                                  FY Total
                                                      March 31, 2010            2010
   Postaward Reports
                                                           15                    13                 28
        Issued
    Dollar Recoveries                                   $2,280,262           $19,352,244        $21,632,506


NAC Not Leveraging Volume Buying Power in Health Care Services Contracts
OIG conducted a series of pre- and postaward reviews of proposals and contracts awarded by
VA’s NAC for Professional and Allied Health Care Stafﬁng Services under FSS Schedule 621I.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                               | 41
Issue 64 | April 1, 2010 — September 30, 2010
                                                            Office of Contract Review


  The reviews found that the prices awarded at the contract level were not fair and reasonable and
  the methodologies used by VA contracting ofﬁcers to determine fair and reasonable pricing were
  inadequate. OIG made several recommendations to the Deputy Assistant Secretary for Acquisition
  and Logistics to correct these issues.

  Counselor to the Inspector General Special Report
  Review of Allegations of Improper Contract Awards to Watkins Sinclair, LLC
  OIG reviewed contract awards to Watkins Sinclair, LLC, in response to a complaint that VISN 7 made
  improper sole source contract awards to the business. OIG identiﬁed 7 contracts and 11 purchase
  orders that were awarded to Watkins Sinclair between October 2007 and July 2009. Only one
  purchase order was awarded by VISN 7, which was a sole source award. The contract ﬁle for this
  award did not provide adequate justiﬁcation for the sole source award. Of the remaining awards to
  Watkins Sinclair, six did not comply with the Competition in Contracting Act and the FAR. Another
  award was an Indeﬁnite Delivery-Indeﬁnite Quantity contract of which eight of the task orders to the
  contract did not comply with the FAR. OIG recommended that VHA ensure compliance with the
  Competition in Contracting Act and the FAR and provide training to Contracting Ofﬁcers regarding
  these provisions.

  Qui Tam Cases
  The OIG protected VA’s interest in four additional cases ﬁled under the qui tam provisions of the False
  Claims Act, P.L. 111-148.

  • 	 In May 2010, The Department of Justice (DOJ) entered into an agreement with AstraZeneca
      to settle allegations that the company engaged in illegal conduct in the marketing of the drug
      Seroquel for unapproved uses. AstraZeneca agreed to pay the Government and the Medicaid
      Participating States $520 million to settle the claims. VA’s Supply Fund will be reimbursed
      approximately
      $15.8 million.

  • 	 In August 2010, a settlement was reached between DOJ and Allergan, Inc. to settle allegations
      that Allergan illegally promoted the sale of Botox for uses that were not approved by the Food
      and Drug Administration (FDA), made and/or disseminated unsubstantiated and/or misleading
      representations that the drug was safe and effective for these unapproved uses, and offered and
      paid illegal remuneration to health care professionals to induce them to promote and prescribe the
      drug. VA’s share of the $210 million settlement was $1.6 million, which will be paid to the Supply
      Fund.

  • 	 In September 2010, a settlement was reached between the DOJ and Novartis Pharmaceutical
      Corporation to settle allegations that Novartis knowingly promoted the sales and use of the drug
      Trileptal for uses not approved by the FDA and offered and paid illegal remuneration to health
      care professions to induce them to promote and prescribe the drug in violation of The Medicare
      and Medicaid Patient and Program Protection Act of 1987 (the “Anti-kickback Statute”), P.L. 100-
      93. VA’s share of the $55 million to settle the civil case was $1.57 million, which will be paid to the
      Supply Fund.


                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
42 |
                                                                             Issue 64 | April 1, 2010 — September 30, 2010
Office of Contract Review


• 	 In September 2010, a settlement was reached between the DOJ and Gilbane Building Company
    to settle allegations that Gilbane submitted false certiﬁcations to various Government entities
    that subcontractors and suppliers had been paid and, based on these false representations, the
    Government made progress payments to Gilbane under the applicable contracts. VA’s portion of
    the $1.3 million settlement was $5,366.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                      | 43
Issue 64 | April 1, 2010 — September 30, 2010
                                            Other Significant OIG Activities


  Congressional Testimony
  Assistant Inspector General for Audits and Evaluations Testiﬁes on VA’s Fiduciary Program
  Assistant Inspector General (AIG) for Audits and Evaluations Belinda Finn testiﬁed before the
  Subcommittee on Disability Assistance and Memorial Affairs, Committee on Veterans’ Affairs, U.S.
  House of Representatives, on OIG audit ﬁndings related to VA’s Fiduciary Program. The audit showed
  that many of the program weaknesses that OIG identiﬁed in 2006 persist today. Speciﬁcally, VBA still
  needs to improve its management infrastructure in the areas of information systems, stafﬁng models,
  and management oversight to support the program. Ms. Finn was accompanied by Timothy Crowe,
  Director, Bay Pines Ofﬁce of Audits and Evaluations.

  AIG for Audits & Evaluations Testiﬁes on VA’s Information Security Program
  AIG for Audits & Evaluations Belinda Finn testiﬁed before the Subcommittee on Oversight and
  Investigations, Committee on Veterans’ Affairs, U.S. House of Representatives, on OIG audit of VA’s
  implementation of the Federal Information Security Management Act of 2002 (FISMA), which requires
  that VA develop, document, and implement an agency-wide information security program. Ms.
  Finn told the Subcommittee that while VA has made progress, its highly decentralized and complex
  system infrastructure poses signiﬁcant challenges for implementing effective access controls, system
  interconnection controls, conﬁguration management controls, and contingency planning practices to
  protect mission critical systems from unauthorized access, alteration, or destruction. Ms. Finn was
  accompanied by Michael Bowman, Director, Information Technology and Security Audits.

  Deputy Inspector General Testiﬁes on VA’s Implementation of OIG Recommendations
  Deputy IG Richard Grifﬁn testiﬁed before the Committee on Veterans’ Affairs, U.S. House of
  Representatives, on OIG’s follow-up program and VA’s implementation of OIG recommendations. Mr.
  Grifﬁn discussed the follow-up process between OIG and VA and reported that while VA generally
  implements OIG recommendations in a timely manner (about 94 percent of recommendations are
  implemented within 1-year of issuance), there are still signiﬁcant unrealized savings and program
  changes that could improve beneﬁts and services to Veterans. He was accompanied by Richard
  Ehrlichman, AIG for Management and Administration.

  Assistant Inspector General Testiﬁes on Veterans Health Administration Contracting and
  Procurement Practices
  AIG for Audits and Evaluations Belinda Finn testiﬁed before the Subcommittee on Health, Committee
  on Veterans’ Affairs, U.S. House of Representatives, on VHA contracting and procurement practices.
  Ms. Finn’s testimony followed up on a December 2009 hearing regarding deﬁciencies in VHA’s
  acquisition of health care goods and services, which in FY 2009 totaled $9.05 billion in expenditures.
  OIG work continues to identify systemic weaknesses that were previously identiﬁed in December,
  including compliance issues with FAR and VA Acquisition Regulations, and incomplete and unreliable
  data in acquisition support information systems. OIG noted improvements with the use of an
  automated acquisition information system in VHA procurements utilizing American Recovery and
  Reinvestment Act of 2009 (ARRA) funds. Ms. Finn was accompanied by Maureen Regan, Counselor
  to the Inspector General.




                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
44 |
                                                                         Issue 64 | April 1, 2010 — September 30, 2010
Other Significant OIG Activities

Special Recognition
OIG Employee Honored at the 2010 National Veterans TEE Tournament
Paula Chapman, Deputy Director of the Combined Assessment Program, was selected as the
recipient of the 2010 Tom Heitzman Golf Buddy of the Year Award. This award was one of four
presented at the National Veterans TEE Tournament held in Iowa City, IA, in September 2010, and
is presented to one volunteer who performs an exceptional job as a Golf Buddy to a blinded golfer.
Attracting more than 150 participants this year, the National Veterans TEE Tournament is a unique
rehabilitation event that provides Veterans the opportunity to develop new skills and strengthen their
self-esteem through adaptive golf, bowling, and other recreational sports activities. Participation is
open to male and female U.S. military Veterans who are visually impaired, as well as those with other
disabilities that include amputations, TBI, psychological trauma, certain neurological conditions, spinal
cord injuries and other disabilities. Ms. Chapman, a Certiﬁed Therapeutic Recreation Specialist, has
been a volunteer for the event since 1997.




                      Paula Chapman, recipient of the 2010 Tom Heitzman Golf Buddy of the Year Award, poses with Army
                      Veteran and Tournament participant James Skuggevik. Ms. Chapman provided assistance to Mr.
                      Skuggevik throughout the tournament.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                        | 45
Issue 64 | April 1, 2010 — September 30, 2010
                             Appendix A: List of OIG Reports Issued


                                                 Funds Recommended for
                                                        Better Use                         Questioned
       Report Title, Number, and Issue Date
                                                               Agreed
                                                               Agreed to
                                                                      to by
                                                                         by                  Costs
                                                 by
                                                  by OIG
                                                     OIG
                                                               Management
                                                               Management
                           INTERNAL AUDITS AND REVIEWS ($951,494,596)
   Audit of National Call Centers and the Inquiry
   Routing and Information System                       -            -                                -
   Report No. 09-01968-150, Issued 05/13/2010
   Audit of Oversight of Patient Transportation
   Contracts                                       $91,994,596  $91,994,596                           -
   Report No. 09-01958-155, Issued 05/17/2010
   Audit of VISN Procurement Practices for FSS
   Professional and Allied Healthcare Stafﬁng
                                                        -            -                     $38,500,000
   Services
   Report No. 08-00270-162, Issued 06/07/2010
   Review of Fraud Management for the Non-VA
   Fee Care Program                                     -            -                                -
   Report No. 10-00004-166, Issued 06/08/2010
   Audit of VHA’s Guide and Service Dog Program
                                                        -            -                                -
   Report No. 10-01714-188, Issued 07/07/2010
   Review of Information Security Issues
   Impacting VA Teleradiology Contracts                 -            -                                -
   Report No. 09-03122-198, Issued 07/20/2010
   Audit of Community-Based Outpatient Clinic
   Management Oversight                                 -            -                                -
   Report No. 09-02093-211, Issued 07/28/2010
   Review of Alleged Use of Unauthorized Wait
   Lists at the Portland VA Medical Center,
                                                        -            -                                -
   Portland, Oregon
   Report No. 10-01857-225, Issued 08/17/2010
   Audit of Non-VA Inpatient Fee Care Program
                                                  $134,000,000 $134,000,000               $600,000,000
   Report No. 09-03408-227, Issued 08/18/2010
   Review of Alleged Improper Program
   Management within the FLITE Strategic Asset
                                                        -            -                                -
   Management Pilot Project
   Report No. 10-01374-237, Issued 09/07/2010
   Audit of the FLITE Strategic Asset Management
   Pilot Project                                        -            -                                -
   Report No. 09-03861-238, Issued 09/14/2010
   Review of Alleged Improper Emergency
   Payments for Education Beneﬁts                       -            -                     $87,000,000
   Report No. 10-01248-249, Issued 09/14/2010


                                                                     VA O f f i c e o f I n s p e c t o r G e n e r a l
46 |
                                                                Issue 64 | April 1, 2010 — September 30, 2010
Appendix A: List of OIG Reports Issued


                                                     Funds Recommended for
                                                            Better Use            Questioned
         Report Title, Number, and Issue Date
                                                                   Agreed
                                                                   Agreed to
                                                                          to by
                                                                             by     Costs
                                                     by
                                                      by OIG
                                                         OIG
                                                                   Management
                                                                   Management
 VA Has Opportunities to Strengthen Program
 Implementation of Homeland Security
                                                     -                  -             -
 Presidential Directive 12
 Report No. 10-01575-262, Issued 09/30/2010
                                   ARRA AUDITS AND REVIEWS
 Audit of State Home Construction Grant
 Program Management of American Recovery
                                                     -                  -             -
 and Reinvestment Act Funds
 Report No. 09-01814-129, Issued 04/15/2010
 Review of VHA’s Efforts to Meet Competition
 Requirements and Monitor Recovery Act
                                                     -                  -             -
 Awards
 Report No. 10-00969-248, Issued 09/17/2010
 Review of the Management of Recovery Act
 Funds for Monument and Memorial Repairs             -                  -             -
 Report No. 09-01814-263, Issued 09/30/2010
 Audit of VA’s Implementation of the Post-9/11
 GI Bill Long Term Solution                          -                  -             -
 Report No. 10-00717-261, Issued 09/30/2010
                                      BENEFITS INSPECTIONS
 VA Regional Ofﬁce, Waco, Texas
                                                     -                  -             -
 Report No. 09-03848-130, Issued 04/16/2010
 VA Regional Ofﬁce, Albuquerque, New Mexico
                                                     -                  -             -
 Report No. 10-00935-156, Issued 05/20/2010
 VA Regional Ofﬁce, Muskogee, Oklahoma
                                                     -                  -             -
 Report No. 10-00936-158, Issued 05/21/2010
 VA Regional Ofﬁce, Denver, Colorado
                                                     -                  -             -
 Report No. 10-01530-196, Issued 07/19/2010
 Veterans Service Center, Cheyenne, Wyoming
                                                     -                  -             -
 Report No. 10-02080-197, Issued 07/19/2010
 VA Regional Ofﬁce, Detroit, Michigan
                                                     -                  -             -
 Report No. 10-02079-226, Issued 08/19/2010
 VA Regional Ofﬁce, Jackson, Mississippi
                                                     -                  -             -
 Report No. 10-02460-240, Issued 09/03/2010
 VA Regional Ofﬁce, Newark, New Jersey
                                                     -                  -             -
 Report No. 10-03055-259, Issued 09/29/2010




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                               | 47
Issue 64 | April 1, 2010 — September 30, 2010
                              Appendix A: List of OIG Reports Issued


                                                    Funds
                                                     FundsRecommended
                                                            Recommendedfor for
                                                           Better Use
                                                            Better Use                       Questioned
                                                                                             Questioned
        Report
        Report Title,
                Title, Number,
                       Number, and
                               and Issue
                                   Issue Date
                                           Date
                                                                 Agreed toto
                                                                   Agreed
                                                                   Agreed  byby
                                                                          to by                Costs
                                                                                                Costs
                                                    bybyOIG
                                                     by OIG
                                                         OIG
                                                                 Management
                                                                   Management
                                                                   Management
                           COMBINED ASSESSMENT PROGRAM REVIEWS
   Manchester VA Medical Center, Manchester,
   New Hampshire                                         -              -                                -
   Report No. 10-00469-122, Issued 04/06/2010
   Harry S. Truman Memorial Veterans’ Hospital,
   Columbia, Missouri                                    -              -                                -
   Report No. 10-00879-126, Issued 04/08/2010
   VA Central California Health Care System,
   Fresno, California                                    -              -                                -
   Report No. 10-01081-135, Issued 04/22/2010
   South Texas Veterans Health Care System,
   San Antonio, Texas                                    -              -                                -
   Report No. 10-01233-136, Issued 04/26/2010
   William Jennings Bryan Dorn VA Medical
   Center, Columbia, South Carolina                      -              -                                -
   Report No. 10-00044-138, Issued 04/27/2010
   Michael E. DeBakey VA Medical Center,
   Houston, Texas                                        -              -                                -
   Report No. 09-03275-147, Issued 05/13/2010
   Aleda E. Lutz VA Medical Center, Saginaw,
   Michigan                                              -              -                                -
   Report No. 09-03276-154, Issued 05/18/2010
   VA Puget Sound Health Care System, Seattle,
   Washington                                            -              -                                -
   Report No. 10-00465-168, Issued 06/09/2010
   Chillicothe VA Medical Center, Chillicothe, Ohio
                                                         -              -                                -
   Report No. 10-00049-169, Issued 06/10/2010
   VA New Jersey Health Care System, East
   Orange, New Jersey                                    -              -                                -
   Report No. 10-00470-172, Issued 06/15/2010
   Souteast Louisiana Veterans Health Care
   System, New Orleans, Louisiana                        -              -                                -
   Report No. 10-00558-176, Issued 06/17/2010
   Jonathan M. Wainwright Memorial VA Medical
   Center, Walla Walla, Washington                       -              -                                -
   Report No. 09-03073-177, Issued 06/21/2010
   Central Texas Veterans Health Care System,
   Temple, Texas                                         -              -                                -
   Report No. 10-01189-187, Issued 07/09/2010


                                                                        VA O f f i c e o f I n s p e c t o r G e n e r a l
48 |
                                                                   Issue 64 | April 1, 2010 — September 30, 2010
Appendix A: List of OIG Reports Issued


                                                     Funds Recommended for
                                                            Better Use            Questioned
         Report Title, Number, and Issue Date
                                                                   Agreed
                                                                   Agreed to
                                                                          to by
                                                                             by     Costs
                                                     by
                                                      by OIG
                                                         OIG
                                                                   Management
                                                                   Management
 VA Nebraska-Western Iowa Health Care
 System, Omaha, Nebraska                                -               -             -
 Report No. 09-03743-189, Issued 07/12/2010
 Providence VA Medical Center, Providence,
 Rhode Island                                           -               -             -
 Report No. 10-01158-190, Issued 07/13/2010
 Portland VA Medical Center, Portland, Oregon
                                                        -               -             -
 Report No. 10-01523-200, Issued 07/21/2010
 VA New York Harbor Healthcare System, New
 York, New York                                         -               -             -
 Report No. 10-00471-201, Issued 07/21/2010
 Dayton VA Medical Center, Dayton, Ohio
                                                        -               -             -
 Report No. 10-01173-203, Issued 07/22/2010
 Carl Vinson VA Medical Center, Dublin,
 Georgia                                                -               -             -
 Report No. 10-00045-207, Issued 07/26/2010
 New Mexico VA Health Care System,
 Albuquerque, New Mexico                                -               -             -
 Report No. 10-01435-210, Issued 07/27/2010
 Tomah VA Medical Center, Tomah, Wisconsin
                                                        -               -             -
 Report No. 09-03277-214, Issued 07/28/2010
 Martinsburg VA Medical Center, Martinsburg,
 West Virginia                                          -               -             -
 Report No. 10-01619-216, Issued 07/28/2010
 North Florida/South Georgia Veterans Health
 System, Gainesville, FL                                -               -             -
 Report No. 10-00054-218, Issued 08/10/2010
 St. Cloud VA Medical Center, St. Cloud,
 Minnesota                                              -               -             -
 Report No. 09-03074-221, Issued 08/12/2010
 Erie VA Medical Center, Erie, Pennsylvania
                                                        -               -             -
 Report No. 10-01782-222, Issued 08/16/2010
 Bath VA Medical Center, Bath, New York
                                                        -               -             -
 Report No. 10-00473-230, Issued 08/23/10
 Los Angeles Healthcare System, Los Angeles,
 California                                             -               -             -
 Report No. 10-01438-231, Issued 08/24/2010



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                               | 49
Issue 64 | April 1, 2010 — September 30, 2010
                             Appendix A: List of OIG Reports Issued


                                              Funds Recommended for
                                                     Better Use                         Questioned
       Report Title, Number, and Issue Date
                                                            Agreed
                                                            Agreed to
                                                                   to by
                                                                      by                  Costs
                                              by
                                               by OIG
                                                  OIG
                                                            Management
                                                            Management
   Southern Arizona VA Health Care System,
   Tucson, Arizona                                -             -                                  -
   Report No. 10-02124-232, Issued 08/25/2010
   VA Montana Health Care System, Fort
   Harrison, Montana                              -             -                                  -
   Report No. 09-03744-233, Issued 08/26/2010
   Tuscaloosa VA Medical Center Tuscaloosa,
   Alabama                                        -             -                                  -
   Report No. 10-00050-247, Issued 09/15/2010
   Fargo VA Medical Center, Fargo, North Dakota
                                                  -             -                                  -
   Report No. 09-03745-250, Issued 09/20/2010
   El Paso VA Health Care System, El Paso,
   Texas                                          -             -                                  -
   Report No. 10-01876-252, Issued 09/21/2010
   VA Long Beach Healthcare System, Long
   Beach, California                              -             -                                  -
   Report No. 10-02382-254, Issued 09/22/2010
                         COMMUNITY BASED OUTPATIENT CLINIC REVIEWS
   Coral Springs and Key West, FL; Boca Raton
   and Vero Beach, FL; Denton and Fort Worth,
                                                  -             -                                  -
   TX
   Report No. 09-01446-125, Issued 04/07/2010
   Payson and Sun City, AZ; Sidney, NE, and Fort
   Collins, CO; Eureka and Ukiah, CA              -             -                                  -
   Report No. 09-01446-132, Issued 04/21/2010
   Smithville, MS, and Memphis (Memphis-
   South), TN; Knoxville, TN, and Norton, VA;
                                                  -             -                                  -
   Chattanooga and Nashville (Vine Hill), TN
   Report No. 10-00627-174, Issued 06/16/2010
   Corpus Christi and New Braunfels, TX;
   Long Beach (Cabrillo) and Santa Fe Springs
   (Whittier), CA; San Diego (Mission Valley) and
                                                  -             -                                  -
   El Centro (Imperial Valley), CA; and Commerce
   (East Los Angeles) and Oxnard, CA
   Report No. 10-00627-208, Issued 07/27/2010
   Delray Beach and Stuart, FL; Portsmouth and
   Cambridge, OH; Canton and Painesville, OH;
                                                  -             -                                  -
   South Bend and Muncie, IN
   Report No. 10-00627-209, Issued 07/27/210


                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
50 |
                                                             Issue 64 | April 1, 2010 — September 30, 2010
Appendix A: List of OIG Reports Issued


                                                     Funds
                                                      FundsRecommended
                                                             Recommendedfor for
                                                            Better
                                                             BetterUse
                                                                    Use            Questioned
                                                                                   Questioned
         Report Title, Number, and Issue Date
                                                                  Agreed
                                                                   Agreed
                                                                    Agreed
                                                                         toto
                                                                           to
                                                                            byby
                                                                              by     Costs
                                                                                      Costs
                                                     by
                                                      by
                                                       byOIG
                                                         OIG
                                                          OIG
                                                                  Management
                                                                   Management
                                                                    Management
 Pittsﬁeld and Greenﬁeld, MA; Dunkirk and
 Niagara Falls, NY; Hermitage (Marzano) and
 Foxburg (Clarion County), PA; Cumberland,             -                 -             -
 MD; and Harrisonburg, VA
 Report No. 10-00627-239, Issued 09/01/2010
                                          NATIONAL REPORTS
 Informational Report, Community Based
 Outpatient Clinic Cyclical Reports                    -                 -             -
 Report No. 10-00627-124, Issued 04/06/2010
 Evaluation of Emergency Departments and
 Urgent Care Clinics in Veterans Health
                                                       -                 -             -
 Administration Facilities
 Report No. 07-03165-139, Issued 04/28/2010
 Review of Brachytherapy Treatment of Prostate
 Cancer, Philadelphia, Pennsylvania and Other
                                                       -                 -             -
 VA Medical Centers
 Report No. 09-02815-143, Issued 05/03/2010
 Progress in Implementing the Veterans
 Health Administration’s Uniform Mental Health
                                                       -                 -             -
 Services Handbook
 Report No. 08-02917-145, Issued 05/04/2010
 Evaluation of Quality Management in Veterans
 Health Administration Facilities, Fiscal Year
                                                       -                 -             -
 2009
 Report No. 09-00069-161, Issued 06/02/2010
 Oversight of Veterans Health Administration
 Quality Assurance Programs and Contract
                                                       -                 -             -
 Services
 Report No. 10-02829-183, Issued 06/30/2010
 Evaluation of Physician Credentialing and
 Privileging in Veterans Health Administration
                                                       -                 -             -
 Facilities
 Report No. 10-02381-185, Issued 07/06/2010
 Management of Osteoporosis in Veterans with
 Fractures                                             -                 -             -
 Report No. 09-03138-191, Issued 07/13/2010
 Follow-Up Evaluation of Veterans Health
 Administration Missing Patient Policies and
                                                       -                 -             -
 Procedures
 Report No. 08-00526-194, Issued 07/15/2010

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                | 51
Issue 64 | April 1, 2010 — September 30, 2010
                             Appendix A: List of OIG Reports Issued


                                                 Funds Recommended for
                                                        Better Use                         Questioned
       Report Title, Number, and Issue Date
                                                               Agreed
                                                               Agreed to
                                                                      to by
                                                                         by                  Costs
                                                 by
                                                  by OIG
                                                     OIG
                                                               Management
                                                               Management
   Evaluation of Contracted/Agency Registered
   Nurses in Veterans Health Administration
                                                       -              -                               -
   Facilities
   Report No. 10-02288-193, Issued 07/15/2010
   Primary Care Services for Women Veterans:
   Accessibility and Acknowledgment of Test
                                                       -              -                               -
   Results
   Report No. 08-03299-217, Issued 08/04/2010
                                       HEALTHCARE INSPECTIONS
   Alleged Endoscope Reprocessing Issues, St.
   Louis VA Medical Center, St. Louis, Missouri        -              -                               -
   Report No. 10-01141-133, Issued 04/21/2010
   Alleged Radiology and Cardiology Quality
   of Care Issues, Malcom Randall VA Medical
                                                       -              -                               -
   Center, Gainesville, Florida
   Report No. 10-00169-134, Issued 04/22/2010
   Alleged Quality of Care Issues in the Geriatrics
   and Extended Care Service, VA North Texas
                                                       -              -                               -
   Health Care System, Dallas, Texas
   Report No. 09-03610-141, Issued 04/29/2010
   Post-Operative Care Case Review at the
   Lexington VA Medical Center, Lexington,
                                                       -              -                               -
   Kentucky
   Report No. 10-00389-146, Issued 05/11/2010
   Alleged Quality of Care Issues and Privacy
   Violations, Battle Creek VA Medical Center,
                                                       -              -                               -
   Battle Creek, Michigan
   Report No. 10-00355-153, Issued 05/14/2010
   Alleged Patient Abuse and Quality of Care
   Issues, Louis Stokes VA Medical Center,
                                                       -              -                               -
   Cleveland, Ohio
   Report No. 10-01312-160, Issued 05/24/2010
   Suicide After Hospitalization at a Veterans
   Health Facility                                     -              -                               -
   Report No. 10-01346-167, Issued 06/09/2010
   Allegations Concerning Respiratory Therapy
   and Nursing, VA Medical Center, Memphis,
                                                       -              -                               -
   Tennessee
   Report No. 09-03815-170, Issued 06/10/2010


                                                                     VA O f f i c e o f I n s p e c t o r G e n e r a l
52 |
                                                                Issue 64 | April 1, 2010 — September 30, 2010
Appendix A: List of OIG Reports Issued


                                                     Funds Recommended for
                                                            Better Use            Questioned
         Report Title, Number, and Issue Date
                                                                   Agreed
                                                                   Agreed to
                                                                          to by
                                                                             by     Costs
                                                     by
                                                      by OIG
                                                         OIG
                                                                   Management
                                                                   Management
 Inadequate Coordination of Care, Orlando VA
 Medical Center, Orlando, Florida                    -                  -             -
 Report No. 10-00219-180, Issued 06/24/2010
 Patient Care, IRB, and Research Oversight
 Issues at a VA Medical Center                       -                  -             -
 Report No. 08-01515-199, Issued 07/20/2010
 Mortality Review, Aleda E. Lutz Medical Center,
 Saginaw, Michigan                                   -                  -             -
 Report No. 10-00687-223, Issued 08/16/2010
 Review of Quality of Care Issues Tomah VA
 Medical Center and William S. Middleton
 Memorial Veterans Hospital, Tomah and               -                  -             -
 Madison, Wisconsin
 Report No. 10-02355-242, Issued 09/08/2010
 Review of Patient Referrals to the Lower 48
 States at the Alaska VA Healthcare System,
                                                     -                  -             -
 Anchorage, Alaska
 Report No. 10-01509-241, Issued 09/09/2010
 Delay in Cancer Diagnosis, Iowa City VA
 Medical Center, Iowa City, Iowa                     -                  -             -
 Report No. 10-01409-246, Issued 09/14/2010
 Inappropriate Research & Development Data
 Entries Affecting Veterans Equitable Resource
 Allocation (VERA) Funding, VA Maryland              -                  -             -
 Health Care System, Baltimore, MD
 Report No. 10-01247-256, Issued 09/23/2010
 Alleged Inappropriate Treatment, Portland VA
 Medical Center, Portland, Oregon                    -                  -             -
 Report No. 10-01528-258, Issued 09/28/2010
                                 ADMINISTRATIVE INVESTIGATIONS
 Prohibited Personnel Practices, Gifts from
 Prohibited Sources, Lack of Candor, and
 Misuse of Time and Resources, VHA                   -                  -             -
 Workforce Management and Consulting Ofﬁce
 Report No. 09-03058-171, Issued 06/11/2010
 Improper Salary Supplementation, Veterans
 Health Care System of the Ozarks, Fayetteville,
                                                     -                  -             -
 Arkansas
 Report No. 08-03126-229, Issued 08/20/2010


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                               | 53
Issue 64 | April 1, 2010 — September 30, 2010
                             Appendix A: List of OIG Reports Issued


                                                 Funds Recommended for
                                                        Better Use                             Questioned
       Report Title, Number, and Issue Date
                                                               Agreed
                                                               Agreed to
                                                                      to by
                                                                         by                      Costs
                                                 by
                                                  by OIG
                                                     OIG
                                                               Management
                                                               Management
   Prohibited Personnel Practices, Abuse of
   Authority, Misuse of Position, and False
   Statements, Ofﬁce of Human Resources and              -                -                               -
   Administration, VA Central Ofﬁce
   Report No. 10-00853-257, Issued 09/22/2010
                                   PREAWARD REVIEWS (103,428,550)
   Review of Proposal Submitted under
   Solicitation Number VA-251-09-RP-0264 for
   Medical Physicist Services at the Richard l.       $46,322             -                               -
   Roudebush VAMC
   Report No. 10-01799-128, Issued 04/20/2010
   Review of Proposal Submitted under
   Solicitation Number VA-249-09-RP-0154 for
   Radiology Services at the Louisville VA Medical  $1,972,048            -                               -
   Center
   Report No. 10-00913-123, Issued 04/22/2010
   Review of Contract Extension Proposal under
   the Federal Supply Schedule                      $1,017,952            -                               -
   Report No. 10-00184-137, Issued 04/26/2010
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation Number M5-
                                                         -                -                               -
   Q50A-03-R2
   Report No. 10-00976-140, Issued 04/27/2010
   Review of Annual Capitated Rate Awarded to
   Provide Primary Care Services at Community
                                                     $416,812             -                               -
   Based Outpatient Clinics
   Report No. 10-01593-142, Issued 04/30/2010
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation Number 797-FSS-
                                                   $72,210,493            -                               -
   99-0025-R6
   Report No. 10-00398-144, Issued 04/30/2010
   Review of Proposal Submitted for Medical
   Consultant and Attending Services at the Audie
   L. Murphy Division of the South Texas Veterans   $1,270,677            -                               -
   Health Care System
   Report No. 10-01797-157, Issued 04/30/2010
   Review of Federal Supply Schedule Extension
   Proposal                                         $2,620,044            -                               -
   Report No. 10-01186-152, Issued 05/12/2010


                                                                         VA O f f i c e o f I n s p e c t o r G e n e r a l
54 |
                                                                    Issue 64 | April 1, 2010 — September 30, 2010
Appendix A: List of OIG Reports Issued


                                                     Funds Recommended for
                                                            Better Use            Questioned
         Report Title, Number, and Issue Date
                                                                   Agreed
                                                                   Agreed to
                                                                          to by
                                                                             by     Costs
                                                     by
                                                      by OIG
                                                         OIG
                                                                   Management
                                                                   Management
 Review of Proposal Submitted under
 Solicitation Number VA-248-09-RP-0653 for
 Ophthalmology Services at Bay Pines VA              $1,391,413         -             -
 Healthcare System
 Report No. 10-02239-159, Issued 05/26/2010
 Review of Proposal Submitted under
 Solicitation Number VA-69D-09-RP-0431
 for Heart and Lung Transplant Services for
                                                     $625,819           -             -
 the William S. Middleton Memorial Veterans
 Hospital
 Report No. 10-01499-163, Issued 06/03/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number RFP-797-
                                                     $1,298,851         -             -
 FSS-99-0025-R6
 Report No. 10-00937-175, Issued 06/11/2010
 Review of Proposal Submitted under
 Solicitation Number VA-69D-09-RP-0576
 for Hemodialysis and Continuous Renal
 Replacement Therapy to the William S.               $1,381,382         -             -
 Middleton Memorial Veterans Hospital,
 Madison, Wisconsin
 Report No. 10-01796-149, Issued 06/14/2010
 Review of Proposal Submitted under
 Solicitation Number VA-260-08-RP-0386 for
 Neuroradiology Services at the VA Medical           $1,085,075         -             -
 Center, Portland, Oregon
 Report No. 10-00912-164, Issued 06/15/2010
 Review of Proposal Submitted under
 Solicitation Number VA-244-10-RP-0026 for
 Neurological Surgery Services at VA Pittsburgh      $367,599           -             -
 Healthcare System
 Report No. 10-02551-179, Issued 06/21/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number RFP-797-
                                                     $1,072,800         -             -
 FSS-99-0025-R6
 Report No. 10-01521-181, Issued 06/25/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number RFP-797-
                                                         -              -             -
 FSS-99-0025-R5
 Report No. 09-03748-186, Issued 07/01/2010

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                               | 55
Issue 64 | April 1, 2010 — September 30, 2010
                              Appendix A: List of OIG Reports Issued


                                                  Funds Recommended for
                                                         Better Use                         Questioned
       Report Title, Number, and Issue Date
                                                                Agreed
                                                                Agreed to
                                                                       to by
                                                                          by                  Costs
                                                  by
                                                   by OIG
                                                      OIG
                                                                Management
                                                                Management
   Review of Proposal Submitted under
   Solicitation Number VA-261-10-RP-0033 for
   Hematology/Oncology Services at the VA         $725,203             -                               -
   Sierra Nevada Health Care System
   Report No. 10-02840-182, Issued 07/05/2010
   Review of Proposal Submitted under
   Solicitation Number VA-258-09-RP-0297 for
   Otolaryngology Surgeon Services at New         $1,746,390           -                               -
   Mexico VA Health Care System
   Report No. 10-02277-195, Issued 07/14/2010
   Review of Contract Extension Proposal under
   the Federal Supply Schedule                        -                -                               -
   Report No. 10-02221-202, Issued 07/20/2010
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation Number M5-
                                                      -                -                               -
   Q50A-03-R2
   Report No. 10-02364-205, Issued 07/21/2010
   Review of Proposal Submitted under
   Solicitation Number VA-244-09-RP-0104 for
   Anesthesiology Healthcare Services at VA       $2,959,821           -                               -
   Pittsburgh Healthcare System
   Report No. 10-02540-213, Issued 07/26/2010
   Review of Proposal Submitted under
   Solicitation Number VA-256-10-RP-0202
   for Neurosurgery Healthcare Services at        $1,286,974           -                               -
   Oklahoma City VA Medical Center
   Report No. 10-03044-204, Issued 07/29/2010
   Review of Contract Extension Proposal under
   the Federal Supply Schedule                    $710,075             -                               -
   Report No. 10-02220-212, Issued 08/11/2010
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation Number RFP-797-
                                                  $1,351,806           -                               -
   FSS-99-0025-R6
   Report No. 10-02396-224, Issued 08/17/2010
   Review of Proposal Submitted under
   Solicitation Number VA-263-10-RP-011 for
   Dermatology Healthcare Services at the Iowa    $432,185             -                               -
   City Medical Center
   Report No. 10-03366-219, Issued 08/18/2010


                                                                      VA O f f i c e o f I n s p e c t o r G e n e r a l
56 |
                                                                 Issue 64 | April 1, 2010 — September 30, 2010
Appendix A: List of OIG Reports Issued


                                                      Funds Recommended for
                                                             Better Use            Questioned
         Report Title, Number, and Issue Date
                                                                    Agreed to by     Costs
                                                       by OIG
                                                                    Management
 Review of Proposal Submitted under
 Solicitation Number VA-256-10-RP-0116
 Dermatology Services at the Oklahoma City VA        $463,710            -             -
 Medical Center
 Report No. 10-03113-220, Issued 08/18/2010
 Review of Proposal Submitted under
 Solicitation Number VA-256010-RP-0093 for
 Radiology Healthcare Services at Oklahoma           $749,362            -             -
 City VA Medical Center
 Report No. 10-03114-228, Issued 08/19/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number 797-FSS-
                                                         -               -             -
 99-0025-R6
 Report No. 10-02498-234, Issued 08/23/2010
 Review of Proposal Submitted under
 Solicitation Number VA-259-09-RP-0044 for
 Radiology Healthcare Services at George E.          $3,488,280          -             -
 Wahlen VA Medical Center
 Report No. 10-03115-243, Issued 09/02/2010
 Review of Proposal Submitted under
 Solicitation Number VA-259-10-RP-0150 for
 Cardio Stress Tests and Consultation for VA         $1,062,405          -             -
 Medical Center, Grand Junction, Colorado
 Report No. 10-03473-236, Issued 09/08/10
 Review of Proposal for Oncology and
 Brachytherapy Systems under Solicitation
                                                     $1,553,044          -             -
 Number M6-Q6-09
 Report No. 10-2533-244, Issued 09/08/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
                                                         -               -             -
 Q50A-03-R2
 Report No. 10-02863-253, Issued 09/20/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number RFP-797-
                                                         -               -             -
 FSS-99-0025-R6
 Report No. 10-01942-251, Issued 09/23/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number
                                                         -               -             -
 797-652F-05-0001-R2
 Report No. 10-03022-255, Issued 09/23/2010

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                | 57
Issue 64 | April 1, 2010 — September 30, 2010
                             Appendix A: List of OIG Reports Issued


                                                Funds Recommended for
                                                       Better Use                         Questioned
       Report Title, Number, and Issue Date
                                                              Agreed
                                                              Agreed to
                                                                     to by
                                                                        by                  Costs
                                                by
                                                 by OIG
                                                    OIG
                                                              Management
                                                              Management
   Review of Proposal Submitted under
   Solicitation Number VA-256-08-RP-0136 for
   Gastroenterology Services at G.V. (Sonny)     $122,008            -                               -
   Montgomery VA Medical Center
   Report No. 10-03615-260, Issued 09/29/2010
                                 POSTAWARD REVIEWS ($19,352,244)
   Review of Contract Extension Proposal and
   Voluntary Disclosure for Defective Pricing
   Adjustments under the Federal Supply             -                -                       $269,196
   Schedule
   Report No. 09-03507-109, Issued 04/01/2010
   Review of Overcharges Relating to the Failure
   to Offer Covered Drugs Under the Federal
                                                    -                -                       $327,911
   Supply Schedule
   Report No. 10-00292-127, Issued 04/09/2010
   Review of Voluntary Disclosure and Refund
   Offer under the Federal Supply Schedule          -                -                       $144,024
   Report No. 09-01654-131, Issued 04/15/2010
   Review of Voluntary Disclosure Submitted for
   Product Additions under the Federal Supply
                                                    -                -                               -
   Schedule
   Report No. 10-00903-48, Issued 05/11/2010
   Review of Voluntary Disclosure and Refund
   Offer under the Federal Supply Schedule          -                -                        $13,308
   Report No. 09-02433-151, Issued 05/11/2010
   Review of Federal Supply Schedule 621 I -
   Professional and Allied Healthcare Stafﬁng
                                                    -                -                               -
   Services
   Report No. 08-02969-165, Issued 06/07/2010
   Review of Supplemental Voluntary Disclosure
   and Refund Offer under the Federal Supply
                                                    -                -                        $85,279
   Schedule
   Report No. 10-01685-173, Issued 06/10/2010
   Review of Off-Label Marketing of a
   Pharmaceutical Product                           -                -                    $15,863,557
   Report No. 10-03054-184, Issued 06/30/2010




                                                                    VA O f f i c e o f I n s p e c t o r G e n e r a l
58 |
                                                               Issue 64 | April 1, 2010 — September 30, 2010
Appendix A: List of OIG Reports Issued


                                                     Funds Recommended for
                                                            Better Use            Questioned
         Report Title, Number, and Issue Date
                                                                   Agreed to by     Costs
                                                      by OIG
                                                                   Management
 Review of Overcharges Relating to Failure to
 Offer a Covered Drug under the Federal Supply
                                                       -                -          $311,082
 Schedule
 Report No. 10-02210-178, Issued 07/12/2010
 Review of Overcharges Relating to Federal
 Ceiling Price Recalculations and Price
                                                       -                -          $307,205
 Reductions under the Federal Supply Schedule
 Report No. 08-03209-206, Issued 07/22/2010
 Review of Disclosure Memorandum under the
 Federal Supply Schedule                               -                -         $1,501,876
 Report No. 09-00967-215, Issued 09/09/2010
 Review of Voluntary Disclosure and Refund
 Offer under the Federal Supply Schedule               -                -          $352,916
 Report No. 10-00192-235, Issued 09/09/10
 Review of Overcharges Relating to Federal
 Ceiling Price Recalculations under the Federal
                                                       -                -          $175,890
 Supply Schedule
 Report No. 10-00294-245, Issued 09/08/2010
                                         SPECIAL REPORTS
 Review of Allegations of Improper Contract
 Awards to Watkins Sinclair, LLC                       -                -             -
 Report No. 09-02322-192, Issued 07/14/2010
 Total Funds Recommended for Better Use           $225,994,596     $225,994,596        -
 Total Questioned Costs                                -               -          $725,500,000
 Total Preaward Savings and Cost Avoidance        $103,428,550         -               -
 Total Postaward Dollar Recoveries                     -               -           $19,352,244




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                               | 59
Issue 64 | April 1, 2010 — September 30, 2010
                  Appendix B: Unimplemented OIG Reports and
                                           Recommendations
  The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to
  complete ﬁnal action on each OIG report recommendation within 1 year after the report is ﬁnalized.
  OIG is required to identify unimplemented recommendations in its Semiannual Report to Congress
  until the ﬁnal action is completed. This table summarizes the status of all unimplemented OIG reports
  and recommendations. Results are sorted by the action ofﬁce responsible for implementation.
  Additionally, the table indicates how many of these unimplemented OIG reports and recommendations
  are less than or more than 1 year.

  As of September 30, 2010, there are 120 open reports and 674 open recommendations. However,
  some of these reports and recommendations are counted more than once in the table below because
  they have actions at more than one ofﬁce. Of the reports open more than 1 year, 2 reports and
  2 recommendations have actions at two or more ofﬁces. Of the reports open less than 1 year,
  5 reports and 6 recommendations have actions at two or more ofﬁces. Although the FY 2009 FISMA
  audit contains unimplemented OIG recommendations from previous years’ FISMA audits, the report
  and its recommendations are considered to be open less than 1 year because it was issued after
  September 30, 2009.

                 Table 1: Total Unimplemented OIG Reports and Recommendations
                                                                            Total Reports Open
                                                        Reports Open More




                                                                                                                                             Recommendations
                                    Reports Open Less




                                                                                                 Recommendations




                                                                                                                       Recommendations
                                                                                                                        Open More Than
                                                                                                  Open Less Than
                                       Than 1 Year




                                                           Than 1 Year




                                                                                                      1 Year




                                                                                                                            1 Year




                                                                                                                                                  Open
                                                                                                                                                  Total
         Veterans Health
                                       76                  14               90                      450                    34                   484
          Administration
        Veterans Beneﬁts
                                       12                    3              15                       44                     5                    49
          Administration
        National Cemetery
                                         1                   0               1                        3                     0                     3
          Administration
      Ofﬁce of Information &
                                         7                   6              13                       63                    33                    96
           Technology
       Ofﬁce of Operations,
                                         1                   0               1                       11                     0                    11
   Security, and Preparedness
      Ofﬁce of Acquisitions,
                                         2                   2               4                       10                     4                    14
   Logistics, and Construction
       Ofﬁce of Public and
                                         1                   0               1                       13                     0                    13
    Intergovernmental Affairs
          Chief of Staff              2                     0                2                       12                     0                    12
               Total                 102                   25               127                     606                    76                   682


                                                                                                            VA O f f i c e o f I n s p e c t o r G e n e r a l
60 |
                                                                                                    Issue 64 | April 1, 2010 — September 30, 2010
Appendix B: Unimplemented OIG Reports and
Recommendations
      Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                            Responsible Number of Open    Monetary
    Report Title, Number, and Issue Date
                                            Organization Recommendations    Impact
 Audit of VA Acquisition Practices for the
 National Vietnam Veterans Longitudinal
                                               VHA            1 of 3           -
 Study
 Report No. 04-02330-212, Issued 09/30/2005

 Recommendation 1: We recommended that the Under Secretary for Health and the Chief Management Ofﬁcer initiate
 formal acquisition planning and proper contracting processes to expeditiously and successfully complete the Study and
 ensure that assigned project management and contracting staff have the required knowledge and skills to effectively
 plan, procure, administer, and manage the Study in accordance with pertinent legal, procedural, and technical
 requirements.

 Review of Issues Related to the Loss of
 VA Information Involving the Identity of
                                                               OI&T                   1 of 6                    -
 Millions of Veterans
 Report No. 06-02238-163, Issued 07/11/2006

 Recommendation d: We recommend that the Secretary ensure that all position descriptions are evaluated and have
 proper sensitivity level designations, that there is consistency nationwide for positions that are similar in nature or
 have similar access to VA protected information and automated systems, and that all required background checks are
 completed in a timely manner.

 Audit of Veterans Health Administration’s
 Oversight of Nonproﬁt Research and
                                                                VHA                   3 of 5                    -
 Education Corporations
 Report No. 07-00564-121, Issued 05/05/2008

 Recommendation 1: We recommended that the Under Secretary for Health prepare a recommendation to the
 Secretary deﬁning the oversight authorities of the NPOB, CFO, and NPPO and update VHA Handbook 1200.17 to
 incorporate these authorities.

 Recommendation 3: We recommended that the Under Secretary for Health revise VHA Handbook 1200.17 to clearly
 deﬁne minimum control requirements for all NPCs and provide training to NPC Directors on these requirements.

 Recommendation 5: We recommended that the Under Secretary for Health develop and implement procedures to
 review, monitor, and enforce NPC compliance with conﬂict of interest laws and policies.

 Audit of Veterans Beneﬁts Administration
 Transition Assistance for Operations
 Enduring and Iraqi Freedom Service                             VBA                   1 of 8                    -
 Members and Veterans
 Report No. 06-03552-169, Issued 07/17/2008

 Recommendation 8: We recommended the Acting Under Secretary for Beneﬁts establish policies and procedures that
 require staff to provide special outreach to Veterans who do not have a high school diploma or equivalent.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                           | 61
Issue 64 | April 1, 2010 — September 30, 2010
                     Appendix B: Unimplemented OIG Reports and
                                              Recommendations
       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open   Monetary
     Report Title, Number, and Issue Date
                                              Organization Recommendations   Impact
   Audit of Veterans Health Administration
   Noncompetitive Clinical Sharing
                                                 VHA            1 of 7      $95,666
   Agreement
   Report No. 08-00477-211, Issued 09/29/2008

   Recommendation 5: We recommended that the Under Secretary for Health instruct the VISN contracting ofﬁcers to
   initiate recovery of overpayments identiﬁed by our audit, as appropriate.

   Audit of Procurements Using Prior-Year
   Funds to Maintain VA Healthcare Facilities                  VHA                   1 of 7                                -
   Report No. 08-00244-213, Issued 09/30/2008

   Recommendation 7: We recommended the Under Secretary for Health consult with the Assistant Secretary for
   Management to develop plans to implement controls over obligation of expired funds in other VHA programs, projects,
   or activities.

   Healthcare Inspection, Review of VA Use
   of Animals in Research Activities                           VHA                   4 of 6                                -
   Report No. 07-01148-109, Issued 04/15/2009

   Recommendation 1: We recommended that the Under Secretary for Health work with all VA animal research
   programs to require university afﬁliates’ compliance with the requirements of VHA Handbook 1200.7.

   Recommendation 2: We recommended that the Under Secretary for Health ensure that all VA animal research
   programs have an active occupational health program.

   Recommendation 4: We recommended that the Under Secretary for Health ensure that the VHA work orders
   submitted for repairs to ARFs [Animal Research Falities] are completed in a timely fashion.

   Recommendation 6: We recommended that the Under Secretary for Health deﬁne minimum qualiﬁcation standards
   for VMOs [Veterinary Medical Ofﬁcers] and VMCs [Veterinary Medical Consultants] performing duties described in
   VHA Handbook 1200.7.

   Follow-Up Audit of VA’s Major
   Construction Contract Award and
                                                               OALC                  1 of 4                                -
   Administration Process
   Report No. 08-01960-112, 04/29/2009

   Recommendation 3: We recommended the Executive Director for OALC develop written QA [Quality Assurance]
   policies and procedures, and program performance measures addressing all QA Service areas of responsibilities.




                                                                                         VA O f f i c e o f I n s p e c t o r G e n e r a l
62 |
                                                                                    Issue 64 | April 1, 2010 — September 30, 2010
Appendix B: Unimplemented OIG Reports and
Recommendations
      Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                            Responsible Number of Open    Monetary
    Report Title, Number, and Issue Date
                                            Organization Recommendations    Impact
 Healthcare Inspection, Review of Informed
 Consent in the Department of Veterans
                                               VHA            4 of 5           -
 Affairs Human Subjects Research
 Report No. 08-02725-127, Issued 05/15/2009

 Recommendation 1: We recommended that the Under Secretary for Health require that facility Directors ensure
 sufﬁcient IRB [Institutional Review Board] written documentation of waiver from informed consent.

 Recommendation 2: We recommended that the Under Secretary for Health establish procedures requiring facility
 Directors to ensure signed informed consent forms are on ﬁle.

 Recommendation 4: We recommended that the Under Secretary for Health require facility Directors to ensure that
 witnesses are obtained for all VA consent forms as required.

 Recommendation 5: We recommended that the Under Secretary for Health establish procedures requiring facility
 Directors to ensure that IRB-approved informed consent forms consistently contain witness blocks or ensure sufﬁcient
 IRB written documentation of waiver from the witness requirement.

 Audit of VA Consolidated Mail Outpatient
 Pharmacy Inventory Accountability                            VHA                  1 of 6                    -
 Report No. 08-02730-133, Issued 05/28/2009

 Recommendation 2: We recommend the Under Secretary for Health require the Deputy Chief Consultant PBM/CMOP
 perform a complete inventory analysis to develop and implement a plan of action to mitigate signiﬁcant variances.

 Audit of VA’s Management of Information
 Technology Capital Investments                               OI&T                 1 of 5                    -
 Report No. 08-02679-134, Issued 05/29/2009

 Recommendation 4: We recommend that the Acting Assistant Secretary for Information and Technology clearly
 deﬁne the roles of the IT governance boards responsible for providing oversight and management of VA’s IT capital
 investments.

 Combined Assessment Program Review of
 the Samuel S. Stratton VA Medical Center,
                                                              VHA                  1 of 13                   -
 Albany, New York
 Report No. 08-02562-139, Issued 06/03/2009

 Recommendation 8: We recommended that the VISN Director ensure that the Medical Center Director takes action to
 protect patient privacy and secure medical information in the ED.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                        | 63
Issue 64 | April 1, 2010 — September 30, 2010
                      Appendix B: Unimplemented OIG Reports and
                                               Recommendations
       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open   Monetary
     Report Title, Number, and Issue Date
                                              Organization Recommendations   Impact
   Audit of Consolidated Mail Outpatient
   Pharmacy Contract Management                  VHA            1 of 4      $724,476
   Report No. 09-00026-143, Issued 06/10/2009

   Recommendation 2: We recommended that the Acting Under Secretary for Health require the National CMOP Ofﬁce
   to assess the continued need for the current backup data storage contract.

   Audit of Veterans Health Administration’s
   Management of Non-Controlled Drugs                              VHA                   5 of 6                                -
   Report No. 08-01322-114, Issued 06/23/2009

   Recommendation 2: We recommended the Under Secretary for Health develop appropriate internal controls to ensure
   pharmacy managers and staff accurately and consistently record drug-dispensing activity in VistA.

   Recommendation 3: We recommended the Under Secretary for Health require that information on drug stocks
   transferred within a VA health care facility and drugs dispensed by and returned to a facility’s stock is accurately and
   consistently recorded in VistA.

   Recommendation 4: We recommended the Under Secretary for Health establish a policy on VA health care facilities’
   use of drugs returned in the mail; and if returned drugs are restocked by facilities, develop procedures to ensure
   information on returned quantities of CMOP dispensed drugs that are restocked is consistently captured in inventory
   records using standardized procedures.

   Recommendation 5: We recommended the Under Secretary for Health develop policy to limit access to the VistA
   label reprint function to appropriate pharmacy personnel and develop standard procedures to capture information on
   drugs dispensed using the reprint function.

   Recommendation 6: We recommended the Under Secretary for Health develop standardized electronic annual
   physical inventory reporting formats; develop standards to ensure that annual physical inventory reports are reasonably
   accurate; and establish a procedure to hold VA health care facility pharmacy managers accountable for the accuracy of
   annual physical inventory reports.

   Audit of VA Incomplete Compensation and
   Pension Medical Examinations                                 VHA/VBA                  2 of 4                                -
   Report No. 08-01392-144 Issued 06/25/2009

   Recommendation 3: We recommended the Under Secretary for Beneﬁts establish a process at VA Regional Ofﬁces
   to ensure complete and accurate information is provided on compensation and pension examination requests.

   Recommendation 4: We recommended the Under Secretary for Health and the Under Secretary for Beneﬁts jointly
   require the CPEP Ofﬁce’s quality assurance reviews include a routine review of incomplete compensation and pension
   examination requests, report identiﬁed deﬁciencies, and recommend improvement actions as needed.




                                                                                             VA O f f i c e o f I n s p e c t o r G e n e r a l
64 |
                                                                                        Issue 64 | April 1, 2010 — September 30, 2010
Appendix B: Unimplemented OIG Reports and
Recommendations
      Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                            Responsible Number of Open    Monetary
   Report Title, Number, and Issue Date
                                            Organization Recommendations    Impact
 Healthcare Inspection, Review of VHA
 Residential Mental Health Care Facilities     VHA            9 of 10          -
 Report No. 08-00038-152, Issued 06/25/2009

 Recommendation 2: We recommended that the Acting Under Secretary for Health should ensure that VISN Directors
 include programming speciﬁc for OIF/OEF veterans in residential programs.

 Recommendation 3: We recommended that the Acting Under Secretary for Health ensure that VISN Directors should
 make sure that residential program managers ensure that patients on waiting lists are periodically contacted and/or
 engaged in treatment while awaiting placement in a residential program.

 Recommendation 4: We recommended that the Acting Under Secretary for Health ensure that VISN Directors
 make sure that medical screening precedes admission for all patients in all residential programs and be documented
 accordingly.

 Recommendation 5: We recommended that the Acting Under Secretary for Health ensure that VISN Directors make
 sure that minimum programming requirements are met 7 days per week.

 Recommendation 6: We recommended that the Acting Under Secretary for Health should further develop formal
 guidelines for mental health clinician stafﬁng by mental health discipline for programs using an all-inclusive stafﬁng
 model and for programs using a residential type clinical stafﬁng model.

 Recommendation 7: We recommended that the Acting Under Secretary for Health should require the presence of at
 least one staff member on each separate wing and ﬂoor of residential programs on all shifts.

 Recommendation 8: We recommended that the Acting Under Secretary for Health ensure that residential programs
 limit dispensing of narcotic self-medication to no more than a 7-day supply for residential program patients.

 Recommendation 9: We recommended that the Acting Under Secretary for Health ensure that all patients on self-
 medication have a documented order for self-administration.

 Recommendation 10: We recommended that the Acting Under Secretary for Health ensure that missed appointments
 by residential program patients should be captured, addressed, and case managed in a uniform manner.

 Review of Defects in VA’s Computerized
 Patient Record System Version 27 and
                                                             VHA/OI&T                  1 of 5                     -
 Associated Quality of Care Issues
 Report No. 09-01033-155, Issued 06/29/2009

 Recommendation 3: We recommended that the Acting Under Secretary for Health and Acting Assistant Secretary for
 Information and Technology implement full system functionality and integration testing of Computerized Patient Record
 System (CPRS) during the Alpha testing to reduce the risk that CPRS functionality defects will adversely affect patient
 safety during production (Beta) testing.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                          | 65
Issue 64 | April 1, 2010 — September 30, 2010
                     Appendix B: Unimplemented OIG Reports and
                                              Recommendations
       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open   Monetary
     Report Title, Number, and Issue Date
                                              Organization Recommendations   Impact
   Audit of VA Electronic Contract
   Management System                             OALC           3 of 8          -
   Report No. 08-00921-181, Issued 07/30/2009

   Recommendation 1: We recommend the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction
   develop and implement VA-wide eCMS policy and handbook to ensure consistent use and compliance with system
   requirements.

   Recommendation 6: We recommend the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction in
   coordination with the Assistant Secretary for Information and Technology establish a plan to evaluate the technical
   performance of eCMS to ensure improved processing.

   Recommendation 7: We recommend the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction
   coordinate with the Assistant Secretary for Management and the Assistant Secretary for Information and Technology to
   determine the feasibility of integrating eCMS with the IFCAP or FMS systems in order to eliminate or minimize duplicate
   data entry and streamline the procurement process.

   Audit of Veterans Health Administration’s
   Non-VA Outpatient Fee Care Program                            VHA                   1 of 8                    $865,419,766
   Report No. 08-02901-185, Issued 08/03/2009

   Recommendation 5: We recommend the Acting Under Secretary for Health establish clear oversight responsibilities
   for the Fee Program and implement oversight procedures to regularly monitor program compliance and performance.

   Administrative Investigation, Misuse
   of Position, Abuse of Authority, and
   Prohibited Personnel Practices, Ofﬁce of
                                                                 OI&T                  2 of 11                               -
   Information & Technology, Washington,
   DC
   Report No. 09-01123-195, Issued 08/18/2009

   Recommendation 5: We recommend that the Assistant Secretary for Information and Technology confer with the
   Ofﬁce of Human Resources to determine the appropriate corrective action concerning _______’s appointment, to
   include her appointment at a rate above the minimum, and take such corrective action.

   Recommendation 9: We recommend that the Assistant Secretary for Information and Technology confer with the
   Ofﬁce of Human Resources to determine the appropriate corrective action concerning the appointments of the four
   GS-15s and take such corrective action.

   Administrative Investigation, Nepotism,
   Abuse of Authority, Misuse of Position,
   Improper Hiring, and Improperly
                                                                 OI&T                 24 of 34                               -
   Administered Awards, OI&T, Washington,
   DC
   Report No. 09-01123-196, Issued 08/18/2009
                                                                                           VA O f f i c e o f I n s p e c t o r G e n e r a l
66 |
                                                                                      Issue 64 | April 1, 2010 — September 30, 2010
Appendix B: Unimplemented OIG Reports and
Recommendations
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                            Responsible Number of Open      Monetary
       Report Title, Number, and Issue Date
                                            Organization Recommendations      Impact

 Recommendation 1*: We recommend that the Assistant Secretary for Information and Technology ensure that
 the total amount of funds unlawfully expended to pay for _______’s salary since his initial OI&T appointment on
 September 16, 2007, is determined, and ensure that a bill of collection is issued to _______ in that amount.

 Recommendation 2: We recommend that the Assistant Secretary for Information and Technology confer with the
 Ofﬁce of HR to determine the appropriate corrective action concerning _______’s VA appointments, and take such
 action.

 Recommendation 3*: We recommend that the Assistant Secretary for Information and Technology ensure that the
 total amount of funds unlawfully expended to pay for _______’s salary since April 27, 2004, the ﬁrst instance of Ms.
 Duncan authorizing the expenditure of VA funds to pay for _______’s education and to advance _______’s career, is
 determined, and ensure that a bill of collection is issue to _______ in that amount.

 Recommendation 5: We recommend that the Assistant Secretary for Information and Technology take appropriate
 administrative action against _______ for not testifying freely and honestly in a matter regarding her employment.

 Recommendation 6: We recommend that the Assistant Secretary for Information and Technology confer with the
 Ofﬁce of HR to determine the appropriate corrective action concerning _______’s appointment, to include her
 appointment at a rate above the minimum, and take such action.

 Recommendation 7: We recommend that the Assistant Secretary for Information and Technology confer with the
 Ofﬁce of HR to determine the appropriate corrective action concerning _______’s appointment, to include her
 appointment at a rate above the minimum, and take such action.

 Recommendation 10: We recommend that the Assistant Secretary for Information and Technology confer with the
 Ofﬁce of HR to determine the appropriate corrective action concerning _______’s improper VA appointment, and take
 such action.

 Recommendation 13: We recommend that the Assistant Secretary for Information and Technology confer with the
 Ofﬁce of HR to determine the appropriate corrective action concerning _______’s improper VA appointment, to
 include her appointment at a rate above the minimum, and take such action.

 Recommendation 16: We recommend that the Assistant Secretary for Information and Technology take appropriate
 administrative action against _______ for authorizing improper academic degree funding.

 Recommendation 18*: We recommend that the Assistant Secretary for Information and Technology ensure that a bill
 of collection is issued to _______ in the amount of $33,407.88 to recover funds improperly expended to pay for her
 academic degree.

 Recommendation 19*: We recommend that the Assistant Secretary for Information and Technology ensure that a
 bill of collection is issued to _______ in the amount of $27,930 to recover funds improperly expended to pay for her
 academic degree.

 Recommendation 20*: We recommend that the Assistant Secretary for Information and Technology ensure that a
 bill of collection is issued to _______ in the amount of $25,711 to recover funds improperly expended to pay for her
 academic degree.

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                        | 67
Issue 64 | April 1, 2010 — September 30, 2010
                     Appendix B: Unimplemented OIG Reports and
                                              Recommendations
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                            Responsible Number of Open      Monetary
       Report Title, Number, and Issue Date
                                            Organization Recommendations      Impact

   Recommendation 21*: We recommend that the Assistant Secretary for Information and Technology ensure that a
   bill of collection is issued to _______ in the amount of $27,561 to recover funds improperly expended to pay for his
   academic degree.

   Recommendation 22*: We recommend that the Assistant Secretary for Information and Technology ensure that a
   bill of collection is issued to _______ in the amount of $15,153 to recover funds improperly expended to pay for his
   academic degree.

   Recommendation 23*: We recommend that the Assistant Secretary for Information and Technology ensure that a
   bill of collection is issued to _______ in the amount of $9,568 to recover funds improperly expended to pay for her
   academic degree.

   Recommendation 24: We recommend that the Assistant Secretary for Information and Technology ensure that OI&T
   conducts a review of its use of the academic degree funding authority, ensure that all requirements are met, and take
   appropriate corrective action in cases where funds were improperly expended.

   Recommendation 26: We recommend that the Assistant Secretary for Information and Technology confer with the
   Ofﬁce of HR to determine the appropriate corrective action concerning the improper FCIP appointments, failure to
   provide 2-year formal training programs, and subsequent conversions to career-conditional status of _______, and
   take such action.

   Recommendation 27: We recommend that the Assistant Secretary for Information and Technology confer with the
   Ofﬁce of HR to determine whether OI&T managers made additional improper FCIP appointments, failed to provide
   a 2-year formal training program, and subsequently converted employees to career-conditional status, and take
   appropriate corrective action.

   Recommendation 28: We recommend that the Assistant Secretary for Information and Technology confer with the
   Ofﬁce of HR to ensure that: (1) FCIP hiring is used only in cases when an approved program is established for speciﬁc
   career ﬁelds; (2) managers and supervisors are knowledgeable of and adhere to FCIP requirements; (3) interns
   appointed under FCIP fully participate in the program and are certiﬁed to have successfully completed the program
   prior to conversion to career or career-conditional status; and (4) HR provides the required oversight and guidance as
   required by VA policy.

   Recommendation 29: We recommend that the Assistant Secretary for Information and Technology confer with the
   Ofﬁce of HR to determine the appropriate corrective action concerning the improper DHA appointments of _______
   and take such action.

   Recommendation 30: We recommend that the Assistant Secretary for Information and Technology confer with the
   Ofﬁce of HR to identify any additional improper VA appointments made using DHA, and take appropriate corrective
   action.

   Recommendation 31: We recommend that the Assistant Secretary for Information and Technology confer with the
   Ofﬁce of HR to ensure that HR personnel and managers with hiring authority are advised of the use and limitations of
   DHA.




                                                                                           VA O f f i c e o f I n s p e c t o r G e n e r a l
68 |
                                                                                      Issue 64 | April 1, 2010 — September 30, 2010
Appendix B: Unimplemented OIG Reports and
Recommendations
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                            Responsible Number of Open      Monetary
       Report Title, Number, and Issue Date
                                            Organization Recommendations      Impact

 Recommendation 32: We recommend that the Assistant Secretary for Information and Technology ensure that OI&T
 Recommending and Approving Ofﬁcials receive training on Federal regulations and VA and OI&T policy related to
 monetary awards, as well as be reminded of their ﬁscal responsibility.

 Recommendation 33: We recommend that the Assistant Secretary for Information and Technology ensure that
 a review of OI&T retention incentives is conducted to ensure that they are necessary and support the mission and
 program needs and that they fully comply with law, OPM regulations, and VA policy.

 Veterans Beneﬁts Administration’s Control

 of Veterans’ Claim Folders                                    VBA                  2 of 9                    -
 Report No. 09-01193-228, Issued 09/28/2009


 Recommendation 2: We recommended the Under Secretary for Beneﬁts establish a mechanism to identify and track
 the number of claims folders regional ofﬁce personnel rebuild.

 Recommendation 9: We recommended the Under Secretary for Beneﬁts establish a mechanism to ensure regional
 ofﬁce personnel enforce the maximum 60 day search established in recommendation 8 and take corrective actions to
 meet the standard where improvement is needed.

 Department of Veterans Affairs System 

 Development Life Cycle Process                               OI&T                  4 of 4                    -
 Report No. 09-01239-232, Issued 09/30/2009


 Recommendation 1: We recommend the Assistant Secretary for Information and Technology require OI&T develop
 and issue a directive that communicates, VA-wide, the mandatory requirements of VA’s SDLC process outlined in the
 existing Program Management Guide to ensure consistent management of VA’s IT investment portfolio.

 Recommendation 2: We recommend the Assistant Secretary for Information and Technology require OI&T implement
 controls to continuously monitor all programs and projects in VA’s IT investment portfolio.

 Recommendation 3: We recommend the Assistant Secretary for Information and Technology enforce disciplined
 performance and quality reviews on all major programs and projects in VA’s IT investment portfolio.

 Recommendation 4: We recommend the Assistant Secretary for Information and Technology require OI&T establish
 and maintain a central data repository to store all program artifacts, including cumulative cost and schedule data.

 TOTALS                                                   23 Reports               74 Recs            $866,239,908


*NOTE: OIG acknowledges that the Ofﬁce of General Counsel provided opinions dated July 9 and August 13, 2010,
that the nepotism statute was not violated and no legal basis exists for collecting funds from individual employees;
however, OIG continues to hold these recommendations open pending receipt of sufﬁcient evidence that the responsible
ofﬁce, OI&T, has determined any tax implications to the employees and any other appropriate administrative actions for
inappropriate approval of funding of academic degrees.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                       | 69
Issue 64 | April 1, 2010 — September 30, 2010
                       Appendix C: Inspector General Act Reporting
                                                     Requirements
  The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
  requirements where they are prescribed by the Inspector General Act, as amended by the Inspector
  General Act Amendments of 1988, P.L. 100-504, and the Omnibus Consolidated Appropriations Act of
  1997, P.L. 104-208.

  The Federal Financial Management Improvement Act of 1996, P.L. 104-208, (FFMIA) requires OIG to
  report instances and reasons when VA has not met the intermediate target dates established in the
  VA remediation plan to bring VA’s ﬁnancial management system into substantial compliance with the
  Act. The audit of VA’s consolidated ﬁnancial statements for FY 2009 and 2008 reported four material
  weaknesses, three of which are repeat conditions from the prior year’s audit. The audit also indicated
  that VA is not in substantial compliance with FFMIA because VA did not substantially comply with
  Federal ﬁnancial management systems requirements. VA revised and expanded the corrective action
  plans for the three repeat material weaknesses identiﬁed in the FY 2009 and 2008 audit.



         IG Act                                 Reporting                                              Status
       References                            Requirements
                        Review of legislative, regulatory, and administrative               Commented on
   Section 4 (a) (2)
                        proposals                                                           367 items
   Section 5 (a) (1)    Signiﬁcant problems, abuses, and deﬁciencies                        See pages 8-45

                        Recommendations with respect to signiﬁcant problems,
   Section 5 (a) (2)                                                                        See pages 8-45
                        abuses, and deﬁciencies
                        Prior signiﬁcant recommendations on which corrective
   Section 5 (a) (3)                                                                        See pages 60-69
                        action has not been completed
                        Matters referred to prosecutive authorities and resulting
   Section 5 (a) (4)                                                                        See pages 22-38
                        prosecutions and convictions

   Section 5 (a) (5)    Summary of instances where information was refused                  None
                        List of reports by subject matter, showing dollar value of
   Section 5 (a) (6)    questioned costs and recommendations that funds be                  See pages 46-59
                        put to better use
   Section 5 (a) (7)    Summary of each particularly signiﬁcant report                      See pages 8-45
                        Statistical tables showing number of reports and dollar
   Section 5 (a) (8)    value of questioned costs for unresolved, issued, and               See page 71
                        resolved reports
                        Statistical tables showing number of reports and dollar
   Section 5 (a) (9)    value of recommendations that funds be put to better                See page 71
                        use for unresolved, issued, and resolved reports




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
70 |
                                                                          Issue 64 | April 1, 2010 — September 30, 2010
Appendix C: Inspector General Act Reporting
Requirements
         IG Act                                                Reporting                              Status
       References                                            Requirements
                                       Summary of each audit report issued before this
                                                                                               See Table 1 and
  Section 5 (a) (10)                   reporting period for which no management decision was
                                                                                               Table 2 below
                                       made by end of reporting period
  Section 5 (a) (11)                   Signiﬁcant revised management decisions                 None
                                       Signiﬁcant management decisions with which the
  Section 5 (a) (12)                                                                           None
                                       Inspector General is in disagreement
  Section 5 (a) (13)                   Information described under section 5(b) of FFMIA       See page 70




                                 Table 1: Resolution Status of Reports with Questioned Costs
                                                                                                  Dollar Value
                                  RESOLUTION STATUS                                Number
                                                                                                  (In Millions)
  No management decision by 09/30/2009                                                0                        $0
  Issued during reporting period                                                      3                    $725.5
    Total inventory this period                                                       3                    $725.5
  Management decisions during the reporting period
  Disallowed costs (agreed to by management)                                          3                    $725.5
  Allowed costs (not agreed to by management)                                         0                        $0
    Total management decisions this reporting period                                  3                    $725.5
    Total carried over to next period                                                 0                        $0




                             Table 2: Resolution Status of Reports with Recommended Funds 

                                         To Be Put To Better Use By Management

                                                                                                  Dollar Value
                                  RESOLUTION STATUS                                Number
                                                                                                  (In Millions)
  No management decision by 03/31/2009                                                0                          $0
  Issued during reporting period                                                      2                        $226
    Total inventory this period                                                       2                        $226
  Management decisions during the reporting period
  Agreed to by management                                                             2                        $226
  Not agreed to by management                                                         0                          $0
    Total management decisions this reporting period                                  2                        $226
    Total carried over to next period                                                 0                          $0




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                  | 71
Issue 64 | April 1, 2010 — September 30, 2010
                        Appendix D: Government Contractor Audit
                                                      Findings
  The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each
  Inspector General appointed under the Inspector General Act of 1978 to submit an appendix on
  ﬁnal, completed contract audit reports issued to the contracting activity that contain signiﬁcant audit
  ﬁndings—unsupported, questioned, or disallowed costs in an amount in excess of $10 million, or other
  signiﬁcant ﬁndings—as part of the Semiannual Report to Congress. During this reporting period, OIG
  issued no contract review reports under this requirement.




                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
72 |
                                                                         Issue 64 | April 1, 2010 — September 30, 2010
Appendix E: American Recovery and Reinvestment
Act Oversight Activities
Enacted in February 2009, ARRA requires OIG to conduct oversight of the VA projects, programs,
grants, and initiatives that received a total of $1.4 billion in funding under the Act. OIG’s program of
oversight includes audits, evaluations, investigation, fraud awareness and prevention training, and
other monitoring activities covering the major VA programs that received ARRA funding. The VA
programs and the amounts of their ARRA funding include:

• 	 $1.0 billion for VHA medical facility nonrecurring maintenance (NRM) and energy projects.

• 	 $150.0 million for VHA Grants to States for extended care facilities.

• 	 $50.0 million for NCA headstone, marker, gravesite, and monument repairs; NRM, energy, and
    road repair projects; and equipment upgrades.

• 	 $157.1 million for VBA claims processing hiring initiative and support of Veterans economic
    recovery payments.

• 	 $50.1 million for OI&T support of VBA implementation of the new Post 9/11 GI Bill education
    assistance programs for Veterans.

As of September 30, 2010, OIG has expended $2.2 million (the entire $1.0 million OIG received under
ARRA and $1.2 million from regular appropriations) in conducting its comprehensive program of ARRA
oversight. OIG’s ARRA-related accomplishments and activities completed to date include:

•     I	ssued seven ﬁnal audit and evaluation reports and one interim advisory report on VA management
       of ARRA program activities.

• 	 Conducted 270 fraud awareness training and outreach sessions across the country attended by
    over 9,000 VA and other ofﬁcials responsible for managing or overseeing ARRA programs and
    projects.

• 	 Opened 53 and closed 8 criminal investigations of alleged wrongdoing pertaining to ARRA-funded
    programs and projects.

• 	 Received 57 Hotline complaints of potential fraud or waste related to ARRA programs or projects.

• 	 Established the OIG Recovery Act Web Site, http://www.va.gov/oig/recovery, which provides
    access to the VA OIG Hotline and information on OIG ARRA reports, activities, plans, and fraud
    prevention training materials.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                           | 73
Issue 64 | April 1, 2010 — September 30, 2010
                        Appendix F: Restoring American Financial
                            Stability Act Reporting Requirements
  Pursuant to the Restoring American Financial Stability Act of 2010, P.L. 111-203, OIG reports that
  no peer reviews were conducted by another OIG during the reporting period ending September 30,
  2010. The last peer review was conducted by the U.S. Department of Agriculture OIG on December
  23, 2009. This report contains no outstanding recommendations. VA OIG conducted an external peer
  review of the Department of Transportation OIG and issued the ﬁnal report on March 3, 2010, which
  contained no recommendations.




                                                                          VA O f f i c e o f I n s p e c t o r G e n e r a l
74 |
                                                                     Issue 64 | April 1, 2010 — September 30, 2010
This page left intentionally blank




                                     | 75

        This page left intentionally blank




76 |

On the Cover
William H. Toledo, a U.S. Marine Corps World War II Veteran, looks at the Marine Corps War
Memorial statue in Arlington, VA, before the wreath laying ceremony commemorating the 65th
anniversary of the Battle of Iwo Jima. Toledo is a surviving Navajo code talker who fought in the
battle. Photo taken February 19, 2010, by Sergeant Alvin Williams. Courtesy of Department of
Defense.
          Office of Inspector General

  United States Department of Veterans Affairs




Report Fraud, Waste, Abuse, or
         Misconduct
 Help VA’s Secretary ensure the integrity of departmental
 operations by reporting suspected criminal activity, waste,
 abuse, or misconduct in VA programs or operations to
 the Inspector General Hotline. Callers can remain
 anonymous.

Telephone: 800-488-VAIG (8244) | Fax: 202-565-7936
              E-mail: vaoighotline@va.gov
             Department of Veterans Affairs
            Inspector General Hotline (53E)
                    P.O. Box 50410
              Washington, DC 20091-0410

     http://www.va.gov/oig/contacts/hotline.asp
